<html>
<title> - GPS: CAN WE AVOID A GAP IN SERVICE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                  GPS: CAN WE AVOID A GAP IN SERVICE?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 7, 2009

                               __________

                           Serial No. 111-44

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
55-293                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERRY E. CONNOLLY, Virginia          PATRICK T. McHENRY, North Carolina
MIKE QUIGLEY, Illinois               BRIAN P. BILBRAY, California
MARCY KAPTUR, Ohio                   JIM JORDAN, Ohio
ELEANOR HOLMES NORTON, District of   JEFF FLAKE, Arizona
    Columbia                         JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois             AARON SCHOCK, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DENNIS J. KUCINICH, Ohio
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 7, 2009......................................     1
Statement of:
    Chaplain, Cristina, Director, Acquisition and Sourcing 
      Management, GAO; Major General William N. McCasland, 
      Director, Space Acquisition, Officer of the Under Secretary 
      of the Air Force; and Dr. Steve Huybrechts, Principal 
      Director, Command, Control, Communications, Space and 
      Spectrum, Office of the Assistant Secretary of Defense 
      Networks and Information Integration/Chief Information 
      Officer....................................................    21
        Chaplain, Cristina.......................................    21
        Huybrechts, Dr. Steve....................................    44
        McCasland, Major General William N.......................    37
    James, Lieutenant General Larry D., Commander, 14th Air Force 
      (Air Force Strategic), Air Force Space Command, and 
      Commander, Joint Functional Component Command for Space, 
      U.S. Strategic Command; Karen L. Van Dyke, Director, 
      Position Navigation and Timing, Research and Innovative 
      Technology Administration, Department of Transportation; F. 
      Michael Swiek, executive director, U.S. GPS Industry 
      Council; and Chet Huber, president, OnStar Corp............    90
        Huber, Chet..............................................   111
        James, Lieutenant General Larry D........................    90
        Swiek, F. Michael........................................   103
        Van Dyke, Karen L........................................    98
Letters, statements, etc., submitted for the record by:
    Chaplain, Cristina, Director, Acquisition and Sourcing 
      Management, GAO, prepared statement of.....................    23
    Huber, Chet, president, OnStar Corp., prepared statement of..   113
    Huybrechts, Dr. Steve, Principal Director, Command, Control, 
      Communications, Space and Spectrum, Office of the Assistant 
      Secretary of Defense Networks and Information Integration/
      Chief Information Officer:
        Followup questions and responses........................ 60, 81
        Prepared statement of....................................    45
    James, Lieutenant General Larry D., Commander, 14th Air Force 
      (Air Force Strategic), Air Force Space Command, and 
      Commander, Joint Functional Component Command for Space, 
      U.S. Strategic Command, prepared statement of..............    92
    McCasland, Major General William N., Director, Space 
      Acquisition, Officer of the Under Secretary of the Air 
      Force:
        Acquisition Improvement Plan.............................    62
        Folowup question and response............................    86
        Prepared statement of....................................    38
    Swiek, F. Michael, executive director, U.S. GPS Industry 
      Council, prepared statement of.............................   105
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Prepared statement of Mr. Pace...........................     2
        Prepared statement of Mr. Parkinson......................     8
    Van Dyke, Karen L., Director, Position Navigation and Timing, 
      Research and Innovative Technology Administration, 
      Department of Transportation, prepared statement of........   100


                  GPS: CAN WE AVOID A GAP IN SERVICE?

                              ----------                              


                         THURSDAY, MAY 7, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Foster, Cuellar, 
Kucinich, Flake, and Duncan.
    Staff present: Andy Wright, staff director; Elliot 
Gillerman, clerk; Brendan Culley and Steven Gale, fellows; 
Margaret Costa, intern; Jeremiah Rigsby and Aaron Wasserman, 
legislative assistants; Dan Blankenburg, minority director of 
outreach and senior advisor; Adam Fromm, minority chief clerk 
and Member liaison; Tom Alexander, minority senior counsel; 
Mitchell Kominsky, minority counsel; Dr. Christopher Bright, 
minority senior professional staff member; and Glenn Sanders, 
minority Defense fellow.
    Mr. Tierney. Good morning. A quorum being present, the 
Subcommittee on National Security and Foreign Affairs' hearing 
entitled, ``GPS: Can We Avoid a Gap in Service?'' will come to 
order.
    I ask unanimous consent that only the chairman and the 
ranking member of the subcommittee be allowed to make opening 
statements, and without objection so ordered. I ask unanimous 
consent that formal written testimony from Dr. Scott Pace of 
the Space Policy Institute of George Washington University's 
Elliott School of International Affairs, as well as formal 
written testimony from Dr. Bradford Parkinson, the chief 
architect of GPS and the original GPS Program Manager, be 
accepted for the record. Without objection, so ordered.
    [The prepared statement of Mr. Pace follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.001
    
    [GRAPHIC] [TIFF OMITTED] T5293.002
    
    [GRAPHIC] [TIFF OMITTED] T5293.003
    
    [GRAPHIC] [TIFF OMITTED] T5293.004
    
    [GRAPHIC] [TIFF OMITTED] T5293.005
    
    [The prepared statement of Mr. Parkinson follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.006
    
    [GRAPHIC] [TIFF OMITTED] T5293.007
    
    [GRAPHIC] [TIFF OMITTED] T5293.008
    
    [GRAPHIC] [TIFF OMITTED] T5293.009
    
    [GRAPHIC] [TIFF OMITTED] T5293.010
    
    [GRAPHIC] [TIFF OMITTED] T5293.011
    
    [GRAPHIC] [TIFF OMITTED] T5293.012
    
    [GRAPHIC] [TIFF OMITTED] T5293.013
    
    [GRAPHIC] [TIFF OMITTED] T5293.014
    
    [GRAPHIC] [TIFF OMITTED] T5293.015
    
    Mr. Tierney. I also ask unanimous consent that the hearing 
record be kept open for 5 business days so that all members of 
the subcommittee will be allowed to submit a written statement 
for the record. And without objection, that's so ordered as 
well.
    Well, again, good morning. And today the Subcommittee on 
National Security and Foreign Affairs will continue its 
oversight of the defense procurement with a hearing that 
focuses on the technology that most Americans find very 
familiar, a GPS, or Global Positioning System. The GPS was 
invented by the United States for the purpose of assisting the 
military in combat operations, but has now expanded to all 
manner of industries from personal transportation assistance to 
commercial aircraft navigation to emergency medical response. 
GPS is made technologically possible by a group of satellites 
known as constellation, positioned in such a manner that when 
communicating with receivers on the ground we can pinpoint the 
location anywhere in the globe.
    As an acquisition program, GPS service falls within the 
clear responsibility of the Department of Defense, most notably 
the Air Force. However, it affects multitudes of users far 
beyond the military. Civilian government agencies rely on it, 
as do commercial industries, personal users, and the 
international community. Indeed, it is as much a part of the 
world's infrastructure as it is a critical system for national 
defense. Unfortunately, that reliance is at risk of being 
misplaced.
    This morning's hearing was called in light of the 
subcommittee's requested Government Accountability Office 
report entitled, ``Global Positioning System: Significant 
Challenges in Sustaining and Upgrading Widely Used 
Capabilities.'' In this report GAO documents weaknesses in the 
procurement of upgrades for GPS satellites, as well as the 
negative effect that these failings have had on current and 
future efforts. The current block upgrade of GPS, GPS IIF, has 
overrun its original estimated costs of $729 million by an 
additional $870 million. In addition, the block will be 
completed 3 years late.
    This is not a new problem for Department of Defense 
procurement. We have another situation where the contractor 
given total system responsibility for the development could not 
execute the job either on time or on budget. According to the 
GAO, no major satellite program undertaken in the past decade 
has met its scheduled goals. It would seem that GPS is no 
exception. What was built as an effort to streamline the 
acquisition process instead resulted in a lack of oversight and 
control by the Air Force and Department of Defense.
    This doesn't bode well for the next GPS block upgrade, GPS 
IIIA, which just began in May of last year under an extremely 
aggressive acquisition schedule. The Air Force has engaged a 
different company and plans greater oversight for this block.
    The GPS IIIA contract was intended to be reminiscent of the 
days before acquisition reform when the government tracked 
contracts closely rather than letting the companies run free. 
There's a novel idea. That sounds good. However, like the 
predecessor GPS block and so many other Department of Defense 
procurements, the contract is a cost-plus type contract, 
meaning the government will pick up the tab no matter how 
expensive it ends up becoming. This system not only hinders the 
accountability on behalf of the contract to the government, but 
also hinders the accountability of the government to the 
taxpayer.
    I look forward to hearing from our Air Force and Department 
of Defense witnesses today about how the failings of the past 
will be avoided.
    Of greater concern even with cost overruns and delay is the 
real possibility of a gap in GPS service. The Department of 
Defense has a formal commitment to users to provide 95 percent 
availability of service, which has been achieved through a 
minimum of 24 satellites in the GPS constellation. With the 
aging of satellites in the GPS constellation there are serious 
questions about whether that availability can be maintained.
    I direct your attention to the monitors on either side of 
the room. The graphics on the screen depict the probability of 
maintaining this 24-satellite commitment. The first graphic 
shows the probability of a 24-satellite constellation falling 
to roughly 80 percent in the 2011-2012 timeframe. The second 
graphic depicts a scenario where if the GPS III block 
encounters even just a conservative 2-year delay the 
probability of maintaining a full service constellation drops 
precipitously starting October 2013, possibly going as low as 
10 percent by 2018.
    In light of recent history I am troubled if we are wholly 
relying on the hope that the GPS acquisition schedule holds as 
it stands today.
    This brings us to a second and equally important set of 
issues. How is the Department of Defense preparing for this 
potential occurrence and what impact may there be to users if a 
gap does occur? The reality is from an acquisition perspective 
we are nearing the eleventh hour. The President's fiscal 2010 
budget terminates funding for the primary GPS back-up system, 
LORAN. That puts a lot of pressure on DOD to ensure that GPS 
meets all user needs; a precarious position to be in if a gap 
is looming.
    What are the Department of Defense and the Air Force doing 
to prepare users for what could be a shock to the system? 
Department of Defense and users need a robust dialog in order 
to ensure that user requirements are met and funded, users are 
prepared for any possible reduction of service, and the GPS 
industry can be involved in discussions about potential 
mitigation strategies.
    GPS is a critical asset in our economy and to our security. 
It's unfortunate that we may find ourselves in a position of 
weakness because we've not yet learned to get our procurement 
house in order. My hope is that today's hearing will provide 
the opportunity for all parties to come to the table to air and 
address concerns and to bring public attention to this 
important matter.
    Mr. Flake.
    Mr. Flake. Thank you, Mr. Chairman. As we all know, GPS is 
an important asset to the military and for civilian purposes. 
The chairman explained very well the problems that we've had; 
cost overruns, significant delays with an ex-version of GPS in 
terms of the satellite systems. Now, we know that the next 
generation will come, and that is slated to be on time at this 
point. We want to make sure that the problems we've had 
recently don't plague the new system coming up.
    There are obviously problems with the procurement system 
that we have at DOD, and I look forward to the testimony and 
seeing what we can do better in the future. Thanks.
    Mr. Tierney. Thank you, Mr. Flake. The subcommittee will 
now receive testimony from the first panel before us today.
    Ms. Cristina Chaplain currently serves as a Director for 
Acquisition and Sourcing Management at the U.S. Government 
Accountability Office, where she has responsibility for GAO 
assessments of military and civilian space acquisitions. Ms. 
Chaplain has also led a variety of Department of Defense-wide 
contracting related and best practice evaluations for the GAO. 
Ms. Chaplain holds a B.A. from Boston University and a M.A. 
from Columbia University.
    Major General William N. McCasland is a Director of Space 
Acquisition in the Office of the Under Secretary of the Air 
Force, where he directs development and purchasing on space and 
missile programs to Air Force major commands, product centers 
and laboratories dealing with acquisition programs. He has 
served in a wide variety of space research acquisition and 
operation roles within the Air Force and the National 
Reconnaissance Office. General McCasland holds a B.S. from the 
U.S. Air Force Academy and a Ph.D. from the Massachusetts 
Institute of Technology.
    And Dr. Steve Huybrechts currently serves as the Principal 
Director for C3, Space and Spectrum, in the Office of the 
Secretary of Defense, where he has oversight responsibility for 
most of the Nation's military space, command and control 
communications, navigation warfare, meteorology, oceanography 
and spectrum allocation activities.
    Would you like to take on some more responsibilities?
    Previously he was assigned to the Air Force Research 
Laboratory, where he was responsible for selecting and managing 
many of the Nation's highest priority space experiments, as 
well as directing the Air Force's research portfolio of 
spacecraft power structures and control technologies. Dr. 
Huybrechts holds a Ph.D. from Stanford University.
    I want to thank all of you for making yourselves available 
today and sharing your substantial expertise. It's the policy 
of the subcommittee to swear in witnesses before they testify, 
so I ask you to please stand and raise your right hands. If 
there are any persons who will be submitting testimony along 
with you, please ask them to rise and raise their right hands 
as well.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses answered in the affirmative. All of your written 
testimonies will be submitted on the record, so everything that 
you have written down and submitted to us will be there.
    We allocate about 5 minutes for people to make an opening 
comment. You will see the amber light come on when there's 
about a minute left. When the red light comes on, the floor 
opens and you drop through if you go to the 5 minutes. But 
generally we try to hold off on that drastic thing and we'll 
let you go a little bit over because we value your testimony. 
We want to hear what you have to say, but we do want to have a 
chance to have some questions and answers and get to the second 
panel as well.
    So, Ms. Chaplain, if you would be kind enough to start.

  STATEMENTS OF CRISTINA CHAPLAIN, DIRECTOR, ACQUISITION AND 
 SOURCING MANAGEMENT, GAO; MAJOR GENERAL WILLIAM N. McCASLAND, 
DIRECTOR, SPACE ACQUISITION, OFFICER OF THE UNDER SECRETARY OF 
 THE AIR FORCE; AND DR. STEVE HUYBRECHTS, PRINCIPAL DIRECTOR, 
COMMAND, CONTROL, COMMUNICATIONS, SPACE AND SPECTRUM, OFFICE OF 
  THE ASSISTANT SECRETARY OF DEFENSE NETWORKS AND INFORMATION 
             INTEGRATION/CHIEF INFORMATION OFFICER

                 STATEMENT OF CRISTINA CHAPLAIN

    Ms. Chaplain. Mr. Chairman and members of the subcommittee, 
thank you for inviting me today to discuss our work on the 
Global Positioning System. We perform this review for your 
committee in light of the criticality of GPS to the military, 
the economy, and many, many individual users, as well as 
challenges that have been facing the acquisition programs.
    We've issued a comprehensive report which is available on 
the GAO Web site. The report covers our findings on the 
acquisition of the satellites, the ground control equipment, 
the military user equipment, as well as the larger coordination 
of GPS. Today I just want to highlight what we believe are the 
most important takeaways of our work.
    In short, all three acquisition programs have had major 
issues in development which have had major consequences for GPS 
users. The GPS IIF satellite acquisition program, for example, 
as you mentioned, was delayed 3 years due to an array of 
issues, including requirements changes, a loss of expertise in 
building the GPS satellites on the contractor side, lax program 
oversight, and technical problems that the program is still 
dealing with. This, coupled with the aging of satellites in 
orbit, the decrease in the number of satellites that were 
planned for the IIF program, and scheduled risks going forward 
with the IIIA program, presents the risk of a capability gap.
    Military user equipment acquisitions have also been delayed 
considerably due to funding shifts and diffuse attention. This 
has also had severe consequences for users. DOD purposefully 
reopened already manufactured satellites 10 years ago to 
install capability that would lessen the effect of jamming of 
GPS for military users. But today because of delays in the 
production of military user equipment we may not see that 
capability be taken advantage of for another 10 years.
    Last, because of developmental delays, ground control 
equipment for GPS cannot presently support some capabilities of 
the newer satellites in orbit. With regard to the potential gap 
in satellite capability our analysis, as you said, shows that 
if both the IIF and IIIA programs are executed on schedule, 
there's still just an 80 to 90 percent probability that the GPS 
constellation will stay above 24 satellites. With a 2-year 
delay the probability drops to as low as 10 percent.
    A couple notes about our analysis. One, we largely 
replicated the methodology employed by the Aerospace Corp. and 
relied on their reliability parameters. We matched the results 
of our analysis of what could happen without the delay with the 
results for Aerospace Corp.
    Two, there are measures available for the Air Force to deal 
with the gap, such as turning off a secondary payload for 
periods of time. But this produces other tradeoffs that need to 
be considered. Moreover, such measures may not be able to 
compensate if there are long delays in schedule.
    Three, our analysis is based on the commitment of the Air 
Force to maintain a 24-satellite constellation, and many users, 
civilian and military, have expressed a desire for 30 or more 
satellites, particularly to assure coverage in mountainous and 
urban areas.
    Four, the Air Force insists that it's on a good track to 
meet the schedule for the IIIA program, and we agree that it is 
and commend the Air Force for taking a number of actions to 
make the program more executable. However, it's important to 
remember the program is still in its early phases. The Air 
Force anticipates shaving off 3 years of what was done for the 
IIF program, and it is still not clear whether the IIF program 
has overcome its schedule problems. Also, the program is not 
merely replicating IIF, it is aiming to build GPS on a much 
larger satellite bus, increase the power of the military signal 
by a factor of 10, and add a new signal, all of which could 
create technical and design difficulties for the contractor.
    Last, as you said, no major space program in recent years 
has been delivered on time. Some programs that have also tried 
to adopt better practices for development have still run into 
schedule delays. As we pointed out in other work, some space 
programs are facing delays as long as 7 years. So in our view, 
there are reasons to be concerned about the schedule for GPS 
IIIA. Moreover, as mentioned before, even without a delay 
there's still up to a 20 percent chance the constellation will 
fall below 24. Clearly that alone warrants attention from 
senior leaders and everyone involved with GPS, which our 
recommendations are focused on and which the DOD concurred 
with.
    Before I conclude I would like to point out that we also 
focus on a larger coordination of GPS among civil agencies, the 
international community, and others. This is a very broad area 
which was frankly impossible to audit comprehensively in the 
time that we had. But it was clear through our discussions and 
analysis of documents that there is confusion on how civilian 
agencies should get their needs met by GPS, and frustration on 
DOD's part, which is focused on keeping the program executable.
    I look forward to the discussion of today's second panel 
because it will also shed light on the degree that users are 
aware of risks facing the program and whether they are in a 
position to manage those risks. That concludes my statement, 
and I look forward to talking more about the report.
    [The prepared statement of Ms. Chaplain follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.016
    
    [GRAPHIC] [TIFF OMITTED] T5293.017
    
    [GRAPHIC] [TIFF OMITTED] T5293.018
    
    [GRAPHIC] [TIFF OMITTED] T5293.019
    
    [GRAPHIC] [TIFF OMITTED] T5293.020
    
    [GRAPHIC] [TIFF OMITTED] T5293.021
    
    [GRAPHIC] [TIFF OMITTED] T5293.022
    
    [GRAPHIC] [TIFF OMITTED] T5293.023
    
    [GRAPHIC] [TIFF OMITTED] T5293.024
    
    [GRAPHIC] [TIFF OMITTED] T5293.025
    
    [GRAPHIC] [TIFF OMITTED] T5293.026
    
    [GRAPHIC] [TIFF OMITTED] T5293.027
    
    [GRAPHIC] [TIFF OMITTED] T5293.028
    
    [GRAPHIC] [TIFF OMITTED] T5293.029
    
    Mr. Tierney. Thank you very much.
    General.

        STATEMENT OF MAJOR GENERAL WILLIAM N. McCASLAND

    General McCasland. Good morning, Chairman Tierney, Ranking 
Member Flake, distinguished members of National Security and 
Foreign Affairs Subcommittee----
    Mr. Tierney. May I ask you to pull the mic closer to you 
and make sure it's on.
    General McCasland. Yes, sir. There we go. Yes, sir. I'm 
Major Neal McCasland, the Air Force's Director for Space 
Acquisition in the Pentagon, and it's a distinct privilege to 
address you on the Air Force's management and execution of the 
GPS program. I've provided a written statement for the record, 
so will limit my opening remarks.
    GPS provides accurate location and time information in all 
weather, day and night, worldwide. It's vital to military and 
civil activities, including mapping, aerial refueling, weapons, 
search and rescue operations, banking, Geodetic Survey, and 
agriculture. The Air Force, as the developer, operator, and 
steward for GPS, is committed to maintaining GPS as the gold 
standard for positioning, navigation, and timing information.
    As your committee has noticed, and this hearing is 
evidence, a sure GPS capability is critical to the success for 
many missions, from humanitarian relief to military operations. 
The Air Force is committed to continuity of this critical 
service. To that end, sustainment of the constellation is our 
No. 1 priority.
    In addition, we continue to make improvements to the 
constellation, including new civil signals, more jam resistant 
military codes, new receivers, increasing accuracy, and 
integrity of the service.
    The foundation for success, both technically and schedule 
wise, lies in our mission assurance process. Mission assurance 
is a disciplined application of management system engineering 
and quality principles over the entire life cycle to ensure 
mission needs are satisfied. It's a culture we've worked hard 
to rebuild at the Space and Missile Systems Product Center that 
permeates the GPS team as ingrained throughout all its 
functional disciplines.
    Simultaneously, senior leadership across the Air Force, 
Departments of Defense, and Transportation have committed to 
GPS program success. This shared goal enhances capability 
synchronization, budget advocacy, and stability and provides 
the support we need to deliver and execute our plan.
    The Air Force, sir, is committed to maintaining GPS as the 
premier provider of positioning navigation and timing services. 
We have a high confidence plan to sustain and modernize this 
critical national capability.
    Thank you for inviting me here today. I'm ready to answer 
your questions.
    [The prepared statement of General McCasland follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.030
    
    [GRAPHIC] [TIFF OMITTED] T5293.031
    
    [GRAPHIC] [TIFF OMITTED] T5293.032
    
    [GRAPHIC] [TIFF OMITTED] T5293.033
    
    [GRAPHIC] [TIFF OMITTED] T5293.034
    
    [GRAPHIC] [TIFF OMITTED] T5293.035
    
    Mr. Tierney. Doctor.

               STATEMENT OF DR. STEVE HUYBRECHTS

    Dr. Huybrechts. Good morning, Chairman Tierney, Mr. Flake, 
distinguished Members. Thank you for the opportunity to testify 
before the Subcommittee on National Security and Foreign 
Affairs.
    Mr. Tierney. Can I ask you as well to pull that closer to 
you. That would be helpful.
    Dr. Huybrechts. I'm sorry. Is that better?
    I have also provided a written statement for the record, 
and General McCasland has gone through much of DOD's position 
so I'll limit my opening remarks.
    My name is Steve Huybrechts. I'm here today representing 
Mr. Grimes, the former Assistant Secretary of Defense for 
Networks and Information Integration. As stated before, I'm the 
Principal Director for Communications, Command and Control, 
Space and Spectrum.
    GPS does play a major combat support role today in both 
Operation Iraqi Freedom and Enduring Freedom. The system plays 
an ever increasing role in a wide range of DOD missions, 
including counterinsurgency operations, force and 
infrastructure protection, collection of intelligence, and 
strike of time critical targets.
    I appreciate the chance to again highlight the importance 
of GPS to a wider audience and the importance of keeping 
funding for GPS across both defense and civil lines stable.
    Mr. Chairman and members of the subcommittee, I thank you 
again for the opportunity to speak to you today. We greatly 
appreciate your support, and I look forward to continued 
collaboration.
    [The prepared statement of Dr. Huybrechts follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.036
    
    [GRAPHIC] [TIFF OMITTED] T5293.037
    
    [GRAPHIC] [TIFF OMITTED] T5293.038
    
    [GRAPHIC] [TIFF OMITTED] T5293.039
    
    [GRAPHIC] [TIFF OMITTED] T5293.040
    
    Mr. Tierney. Well, thank you for what I can only term as 
minimalist testimony. It was both you and General McCasland. I 
don't want to be overly critical on that, General McCasland, 
but I read your testimony and heard what you have to say and 
some would term it as happy talk in the context of what we're 
doing here. And I understand the Air Force is excited about its 
mission or whatever, but we have some serious difficulties here 
in issues that I think have to be confronted on that.
    Let me start. Dr. Huybrechts, at least your written 
testimony did address the two questions that the Government 
Accountability Office posed. And so, Ms. Chaplain, let me ask 
you, has the Department of Defense as far as GAO is concerned 
responded as you would anticipate and as you would have hoped 
with respect to the two issues and recommendations that you 
presented?
    Ms. Chaplain. The Department of Defense concurred with both 
recommendations.
    Mr. Tierney. Have they done anything about it?
    Ms. Chaplain. The report just went out, so I don't see what 
they've done yet. In describing their concurrence they've 
pretty much said the leadership structure that's in place for 
GPS serves them well. And what we're concerned about is that 
there's a lot of people that have a hand in the GPS program, 
and it's not always clear who's really in charge of the 
program.
    That gets to be particularly troublesome when it comes to 
the user equipment. Each military service develops its own user 
equipment that goes on every kind of weapon system you can 
think of. And that's where we see a huge delay, getting that 
user equipment onto weapon systems. So the military services 
have their control over that issue. Acquisition, technology and 
logistics have control on oversight over the acquisition side 
of GPS. The NII office is designated as the lead office for 
GPS. And there's also many, many other players involved with 
GPS.
    So again in our view what we were hoping to see was just 
strength and kind of leadership focused on GPS because of the 
potential capability gaps, because of the risks in acquisition, 
and because of the criticality of GPS to everybody in the 
Nation.
    Mr. Tierney. Dr. Huybrechts, are you that person? Are you 
the one that draws it all together to make sure that they're 
coordinating and getting things done in a timely fashion?
    Dr. Huybrechts. That is my role, yes, up at the OSD level. 
We have put a single service, the Air Force, in charge of all 
segments of the GPS program. This is unlike the way that we 
handled many of our other space programs where multiple 
services are involved. So from that perspective you do have a 
single entity that's in charge of acquisition and operation of 
the system. My office at the OSD level has been given by the 
Deputy Secretary of Defense singular responsibility for this 
program.
    That said, we have to manage the program within the 
Department's processes. It's one of many programs and has to 
get traded off against all the other various departments' 
needs.
    I would like to address the issue of the user equipment 
delay, if I could. I think that about 4 or 5 years ago the 
Department and particularly the Air Force did recognize that 
there was a risk of a gap if we did not act.
    Mr. Tierney. They did or did not recognize?
    Dr. Huybrechts. Did, did recognize that. And it's for that 
reason that within the resources available to the program that 
we prioritized the space segment followed by the ground segment 
upgrades higher than the user equipment. That's one reason the 
user equipment is lagging, is because we wanted to prioritize 
any mitigation or mitigation of a gap in service.
    Mr. Tierney. So you took from Peter to pay Paul. Basically 
you took money out of the end user aspect to deal with the 
satellite situation?
    Dr. Huybrechts. Yes. I would argue that it's probably less 
an issue of money than it is just an issue of people that 
understand this technology that can do this kind of work. 
There's only so many resources that we can apply to the various 
things within space that we're trying to execute. And within 
this program and the elements of our Nation that understand 
this technology we prioritize continuity of service.
    And now if you look where we are focused today it's largely 
on the user equipment because we feel we have a pretty solid 
plan going forward for the continuity of the service issue.
    Mr. Tierney. We're going to get to that in a second. Ms. 
Chaplain, does that give you any comfort?
    Ms. Chaplain. I know you're familiar with GAO's concerns 
about the larger acquisition process. And one of the things we 
harp on is investment strategies and prioritizing across the 
Department. In my view, if you're going to put a priority on 
GPS you need to have a priority on the user equipment and look 
beyond the space portfolio for those resources if it's so 
important to the military.
    Mr. Tierney. And I'm curious, how does the Air Force really 
manage all of the other departments and tell them what needs to 
be done when? General, do you have any difficulty with that? 
What I hear from the GAO report is everybody is sort of getting 
their aspect of it ready when it's ready and putting it on 
whenever they might, and there seems to be no control over 
getting them all coordinated and synchronized. What are you 
doing with that?
    General McCasland. Let me elaborate a little bit on that. 
First off, the Air Force's role in user equipment is to develop 
product lines that are available for the other services and any 
user to integrate them. And just as something to show, I have 
here engineering models of the Next Generation M-code 
compatible user equipment that we're going to be fielding to 
operate with GPS III satellites. Now, these are very early 
engineering models, and it's from two different vendors, and 
it's just an illustration that we're making technical progress 
today.
    To your broader question about management, it's the Air 
Force's role to develop product ties and make available for 
production gear like this. And these are chip sets and 
subassemblies that have all the functions of GPS on them and to 
make them available for the defense industry and the other 
services as a whole. And this is because the Air Force really 
shouldn't be in a position of building the end item that is 
fielded into Army mechanized equipment or into ships or into 
other people's airplanes.
    Mr. Tierney. But I suspect that somebody, if not the Air 
Force then Dr. Huybrechts' office, should be in the business of 
making sure they get it done on time and to certain standards.
    General McCasland. Yes, sir, you bet. And the standard 
setting inside the Department, the Office of Secretary of 
Defense sets policy oversight, the Office of the Chairman of 
the Joint Chiefs sets technical standards for functional 
integration across this enterprise. And we've been through this 
in many ways. If you may recall, the original fielding of GPS 
into the military took these tools of synchronization. And so 
there's been two generations of modernization of GPS user 
equipment since the original fielding. All of them have 
followed a pattern that we've learned from. And it's a balance 
for a program manager, say the manager of an Army mechanized 
equipment line. You know, that program manager has their own 
set of schedule and cost constraints and services to integrate 
into his weapon system. So our job in the Air Force is to 
create an opportunity for that program manager to have good 
choices, economical equipment, technical standards, so that we 
can support them. The timing and the synchronization of this is 
an issue that we look to and support OSD in their oversight 
role. We in the Air Force are accountable for the integration 
into Air Force weapon systems, but we also decentralize that so 
that the program manager of those particular weapon systems are 
the first line of accountability of the integration of a new 
service like GPS or satellite communication or any other 
service into their particular program. This is an effort of 
some complexity in its synchronization, but it's a balance 
between the specialized nature of a service like GPS and the 
mission function of a particular weapon system that has to 
integrate service like this.
    Mr. Tierney. Mr. Flake.
    Mr. Flake. Thank you. I appreciate the testimony. Major 
General McCasland, I never really heard what you thought of the 
GAO report. Do you agree with the finding? Do you concede that 
there's a problem and an issue here or is everything just 
hunky-dory?
    General McCasland. Well, as the Department's response, 
Ranking Member Flake, indicated, we generally agree with that. 
We offered some clarification and comments. If I may, and take 
the lead from your question, let me step through a couple of 
reactions to the report.
    To start with, with this risk of a gap. As the GAO 
indicated, they followed the methodology and the technical 
assumptions that we use in the Air Force to monitor this. Those 
assumptions were provided to them some time ago, about a year 
ago. And in that time some things have changed. These lifetime 
assumptions are a bit like actuarial tables with people, except 
we don't have human history to base them on, we've got a much 
shorter history and population. The specific population we base 
it on is the flying population of GPS IIR satellites. And in 
this year the IIR satellites have continued to live, so the 
models that we base their future forecast have grown a little 
bit. So just in the year we can look to this same gap, and if 
we were to recalculate it, it would be only about half the 
depth that it is today.
    The second comment that I would make, and the GAO did 
acknowledge this in the report, is that this model is based on 
a predicted launch rate and it's based on the full use of all 
the power on the satellite for all the payloads. So those are 
two choices that the operators, and General James, who will be 
on panel II, could speak to, the operator will have choices to 
make. They'll have choices to make about how fast they actually 
launch the satellites and they'll have choices to make about 
the way they spend the power on the satellites.
    So when we take all of this in the whole, we on the supply 
end have choices to make every budget year with the degree to 
which we program the rate, the build rate, and the 
replenishment of the pipeline, the operator has choices to make 
for how fast they consume the pipeline and how fast they 
consume the on orbit resources, the degree to which they 
consume the available electrical power.
    With all of that, we are confident that we've got several 
degrees of margin in preventing a gap like has been depicted in 
the GAO's report. So the GAO's report is accurate insofar as 
those technical assumptions are what happens. We think that 
there are many choices that will allow us the way to not face 
those circumstances over the next few years, sir.
    Mr. Flake. Ms. Chaplain, one of the ways to extend the life 
of these satellites is obviously to cut secondary payloads or 
cut power to those, I guess, to extend the life. One of those 
secondary assignments or purposes of these satellites is 
nuclear detonation detection system. Is that one of the 
secondary payloads that can be jettisoned, if you will, or put 
aside? And if it is, yes, the life of the satellite is 
extended, but do we have a gap then in some of the secondary 
purposes, the nuclear detonation detection system?
    Ms. Chaplain. Well, our point is you can turn off those 
secondary sources and conserve a lot of power, but that needs 
to be a discussion that needs to take place precisely for what 
you're saying, that to look at what other gaps you might be 
facing in other capabilities.
    Also, with regard to predicted launch rates, it's important 
to note that last year we had a lot of issues in launch 
manifest, a lot of back-up. So even what you assume can be a 
good launch rate may not turn out to be the case.
    With regard to the assumptions of data being based over a 
year ago, I would like to note that we held up our report a 
little bit longer so that we could receive data from DOD that 
came to us in March 2009, updated all our analyses, and that's 
what you see reflected in our report.
    Mr. Flake. So you stick to the percentages?
    Ms. Chaplain. I'm very confident what we have is about as 
recent as we could possibly get.
    I would also comment that these same gap scenarios have 
appeared in other documents, including described, but not in 
the chart form, in the report that DOD delivered to Congress on 
the GPS system in December 2008. So the concern about gaps is a 
long-term one, because basically a lot of satellites that are 
in orbit are aging. And there's only--you know, you do have 
measures you can take to conserve power and stretch out the 
constellation. There have been times before when people have 
been worried about gaps and the Air Force has managed them 
quite successfully.
    But here we are again, and our point is this is a high risk 
and we just need a lot of attention and resources on it.
    Mr. Flake. Doctor, do you have anything to add to that, 
particularly with regard to the nuclear detonation detection 
system? Is that one of the choices to not have that function as 
a way to extend the satellite?
    Dr. Huybrechts. Sure. That is one of the choices. I would 
point out that the NDS system, the new detection system, does 
not require 24 packages on orbit. It's a much lower number. The 
reason we launch one on every GPS is just to have a standard 
satellite configuration so we're not worried about which orbit 
we're going into. So there is a fair amount of leeway there to 
turn off payload capability without impacting performance of 
the system.
    I also want to add that we're using the term ``gap,'' and 
that sounds very black or white. Compared to pretty much all of 
our space capabilities, the GPS constellation degrades whether 
it's from 30 to 29 or 24 to 23 or 5 to 4 more gracefully just 
because of the numbers of satellites. This is kind of like the 
number of sweaters in my teenage daughter's closet, right? To 
go from 24 to 23 sweaters is not like she doesn't have any more 
sweaters. It may seem terrible to her.
    So what we're really talking about is a slight chance, and 
our analysis, which is independent of the Air Force's, is more 
in line with General McCasland's analysis. We're more in the 10 
to 20 percent chance, so a small chance of going for a short 
period of time from 24 to 23 satellites. It's not as if GPS 
will turn off.
    I point out the original GPS spec was only 21 satellites. 
The decision to move to 24 in the late 1990's was somewhat 
arbitrary. I don't want to call it an arbitrary number, but it 
was sort of an estimate of what we could afford versus the 
cost-benefit of building more satellites. We decided we were 
going to shoot for about 24 satellites.
    So we shouldn't be sitting here thinking that all the GPS 
receivers are going to stop working. What you're going to get 
is a slight degradation in performance over small portions of 
the world for small periods of time, and relative to today, and 
in primarily impacting users in canyons and places like that.
    Mr. Tierney. Thank you. We didn't realize you were under 
such stress having a teenage daughter, but we'll try to be easy 
on you now.
    Mr. Foster.
    Mr. Foster. If you could continue on that point. The 
degradation that you see then has to do with the resolution 
you've got or the acquisition time or what? How does it show up 
when you get fewer and fewer satellites?
    Dr. Huybrechts. You will see it--you would see it--I mean, 
you would see it today if we--today we're flying 30 or 31. If 
you lose one today, which is well within our tolerance, you 
will see the same impact; a slight degradation in accuracy, and 
possibly for certain users that are in deep canyons, etc., you 
will have less opportunity to get four satellites in view, you 
know, a slightly smaller opportunity to get four satellites in 
view and therefore be able to compute a resolution. So for 
certain very specialized users a slight increase in the 
acquisition time potentially to get the four satellites in 
view, and maybe a slight change in the accuracy, also over 
certain spots of the globe for shorter periods of time.
    Mr. Foster. And I understand there's also a European 
competitor system, Galileo, I think. And do you know what the 
time scale for that is and what its capabilities are nominally 
from both a commercial and a military point of view.
    Dr. Huybrechts. There is a European satellite system. It is 
currently a paper system. But there is money allocated to go 
off and build it. I believe that they are still targeting 2013 
or 2014 timeframe to be launching satellites. Depending on 
which analysis you believe, that may be very optimistic or it 
may be accurate.
    Mr. Foster. And the intention is to make a system where you 
just have reprogrammable digital receivers that you can listen 
to either the European or the U.S. system. Will a typical 
commercial system at least be able to work off of either 
system?
    Dr. Huybrechts. We have a negotiated agreement with the 
European Union so that our signals will be compatible, so that 
when their satellites launch it will be possible to build 
receivers that can accept signals from both systems 
simultaneously. Potentially if we're flying 24 satellites and 
they're flying 24 satellites, a user would have access to 48 
satellites at that point for the civil signal. We don't have 
any agreements at the moment for--relative to their--they don't 
have a military, so you don't have a national security signal, 
but there's potential for that there, too.
    Mr. Foster. The next question is for General McCasland. Are 
the two modules that you have here the only modules that will 
be the standard solution for all Earth-born equipment.
    General McCasland. Those are prototypes of what the Air 
Force intends to make available as standard engines for the GPS 
military user equipment. There is a commercial industry that 
has shown us that they will also develop GPS user equipment for 
commercial applications, and some have capitalized military 
applications as well. So we will build this product line and 
make it available with the documentation.
    My own sense is that our American industry will also 
develop their own product lines and make those available to 
suppliers as well.
    Mr. Foster. So from a military point of view you intend to 
have one product line and everyone is just going to use it, or 
are you just going to say here is a reference design and then 
all the different services are going to go and come up with 
modified versions that?
    General McCasland. That's the core of the GPS receiver that 
you've got in your hands; the radio, the cryptography----
    Mr. Foster. Well, I take it this ball grid array that's 
sort of double sticky taped on here is a mechanical prototype 
here.
    General McCasland. Yes, sir. Those are engineering 
prototypes, those are pretty early models. I just wanted to 
illustrate that it's moved beyond paper.
    Mr. Foster. Now it's in the plastic. Do you have working 
silicon for all the pieces of the--you know, the actual chips 
that will be here?
    General McCasland. I'm sorry, sir?
    Mr. Foster. Do you have working silicon? Do you have 
integrated circuits that do the job?
    General McCasland. For the subassemblies we do there. For 
the correlators, the security modules, we do. We haven't gotten 
a working prototype. The working prototypes are due at the end 
of our--in the end of the fiscal year 2010 program.
    Mr. Foster. And is there anything in the space-borne 
equipment that is being held up because of uncertainties in the 
Earth bound equipment?
    General McCasland. No, sir, not at all.
    Mr. Foster. Or do you have a well-defined technical 
interface there, any independent design problems?
    General McCasland. Well, they are dependent, of course. But 
we've published the signal structure specifications. And along 
the lines of Dr. Huybrechts' last comment, we work to define 
that because the signal structure, it's definition----
    Mr. Foster. So those have been frozen already?
    General McCasland. Yes, sir.
    Mr. Foster. So there's no uncertainty that crosses over. 
OK. My light is red.
    Mr. Tierney. Mr. Duncan, you're recognized for 5 minutes.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, and 
thank you for calling this hearing. Our briefing paper and our 
memorandum says the current modernization program was projected 
to cost $729 million with a completion date of 2006. The Air 
Force has failed to meet cost and scheduling goals for this 
project. GAO estimates that this project is $870 million over 
budget and 3 years past due. And I remember reading last year 
in the GAO report that said the Pentagon had a total of $295 
billion in cost overruns on just its 72 largest weapon systems, 
and nobody got upset about that. Apparently you're not supposed 
to criticize the military in any way today. And I think in part 
it's because the figures are so high that nobody can really 
comprehend it. People did get upset about the $328,000 photo 
mission to New York City. Maybe they can understand that a 
little bit better. But now, according to our memorandum, $1 
billion 6 hundred million has been spent on this program and 
yet it's still not completed, and it's $870 million over 
budget.
    General McCasland, is anybody upset about that or are we 
just going to gleefully go on so that if Chairman Tierney holds 
a hearing on this a year or two from now people are just going 
to come in and tell us it's even more over budget and further 
behind schedule? I mean somebody ought to be upset about this.
    General McCasland. Well, sir, I won't dispute being upset. 
I am, too. Because as a supplier that's resources that I don't 
have available to meet my operational customers' needs. So I'm 
inclined to resonate with you.
    As the GAO report pointed out, the particular portion of 
the GPS program that those figures were associated with is the 
GPS IIF satellite program, the current production program. And 
the GAO noted that a number of circumstances conspired to 
aggravate the business performance of that program, one of 
which was the consolidation of the defense industry. The GPS 
program was awarded to Rockwell Collins. As the industry 
consolidated Rockwell was purchased, its factory operations 
moved up to--it integrated with the former Hughes Space and 
Comm factory in El Segundo under Boeing ownership.
    The second dimension that the GAO also noticed, noted in 
her report, was that the government also chose to evolve and 
modify this program at the same time in response to user 
demands. We had military and civil requirements that we were 
trying to meet, additional services for civilian second civil 
signal and the beginnings of the evolution of the M-code 
modernization and the power growth for the military.
    The third thing that the GAO also noticed in the IIF 
program was that we awarded the IIF program under an experiment 
of acquisition streamlining that we now look back and say was 
not successful.
    And so the combination of those have added up to cost and 
schedule growth that the GAO has rightly reflected on. The GAO 
also noted that for every one of those we've taken steps to 
ensure that those circumstances aren't being repeated on the 
GPS block III program. We believe that the industry 
consolidation is stable, that the supplier base is healthy, 
they have a business volume that tells us that we can count on 
doing business with the same people that we've signed the 
contract with. Now, admittedly, that is subject to 
circumstances beyond defense's control, but it appears to be a 
broadly accepted assumption that the industry is stable.
    We've put into practice kind of a ``back to basics'' 
approach for government oversight, the use of military 
standards, and we think that's already showing signs of 
success.
    Third, we delivered----
    Mr. Duncan. Let me say this. I see my time is about to run 
out. You know, it seems to me that Federal bureaucrats, and 
particularly the Pentagon, can rationalize or justify or excuse 
almost anything. It seems to me that it ought to be awfully 
difficult to make excuses for an $870 million cost overrun. But 
I suppose that since it is money that's not coming out of 
anybody's pocket over there at the Pentagon people don't really 
care that much. And I just think it's terrible. I mean, I can't 
describe words adequate to express my feelings about this 
because I have a feeling that if we come in and have this same 
hearing a year or 2 years from now we're going to hear that 
there's even more cost overruns. And if this was happening in 
the private sector, either people would be fired or a company 
would go out of business. I think it's shameful.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Duncan. Mr. Duncan and I are 
going to start our own party on this issue, because I couldn't 
agree more. And we are going to have a series of hearings about 
procurement in the Department of Defense right on throughout 
this session, because it's outrageous and he's absolutely 
right. I don't think, General, that circumstances conspire. 
That's not what happens. People mess up, all right, and I think 
the Department of Defense in a big way has messed up, starting 
with the idea of whatever they call reform being an absolute 
joke. Their reform was essentially to take out oversight and 
management, to take out scheduling and procurement people, to 
fork over all their responsibilities to things that were 
inherently government and turning it over to the private 
industry as if they were going to be trusted to do everything 
with no self-interest at all.
    I don't know who is responsible for that decision. I would 
like to know whether anybody's head rolled for it? Do you know 
of anybody that lost their job for changing the system? 
Apparently we have written testimony on the record from the 
original program manager for the first GPS system that went on 
time and within budget, and then some genius decided to change 
that process and to put it with what they call reform and take 
out all of the protections and safeguards for the taxpayers' 
moneyand for the end users' ability. So who made that decision, 
General or Doctor, and whose head rolled for it?
    Dr. Huybrechts. Are you asking who made the decision to 
reopen the IIF satellite?
    Mr. Tierney. Who decided between the first GPS and the next 
iteration that they were going to fix something that wasn't 
broken and drive us to the point where we're now behind 
schedule and over 100 percent overrun of cost? Who went from 
the system where you had people in oversight, you had 
government people at the industry's places watching over this, 
where you had schedulers who knew what they were doing and how 
to account for variations, where you had program managers 
watching it every day to a system where you just gave it to the 
contractor and have a nice day? I mean, who is responsible for 
that?
    General McCasland. Well, Mr. Chairman, the timeframe of 
these decisions were in the late 1990's, and I didn't prepare 
for a historical accounting.
    Mr. Tierney. Well, I'm sorry that you didn't, but clearly 
this hearing was about what went wrong and what's going right, 
so maybe you should have. But the idea is who would it be? 
Would it be your level, the person that was in your seat that 
would make that decision? Or, Doctor, would it be the person 
that was in your seat at that time that would be responsible?
    Dr. Huybrechts. The decision to open up the IIF satellite 
and add the new civil and military capabilities was made in the 
late 1990's at the White House level.
    Mr. Tierney. OK. It was made at the White House level to 
actually change the whole system of how it was done instead of 
following the program aspects of the previous one to go to 
another thing, they made that at the White House as opposed to 
the Department of Defense?
    Dr. Huybrechts. The decision to modernize the GPS system--
--
    Mr. Tierney. I'm not talking about that, Doctor. You know 
what I'm talking about. I know the idea to modernize it. Who 
made the decision of how they were going to manage it? That's 
what I want to know. And I doubt very much that was made at the 
White House. That was made somewhere in the Department of 
Defense. And my question to you is, who in the Department of 
Defense, at what level and what particular seat, decided to go 
for a program that was operating perfectly well to a system 
that gave it all over to the contractor without any government 
oversight or any essential government oversight, who made that 
decision?
    Dr. Huybrechts. If you're asking who made the decision to 
change how we did space acquisition writ large, because we did 
change space acquisition and how we did it, not just in this 
program but across all the space programs at that time, I would 
have to take that question for the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5293.041
    
    Mr. Tierney. Would you do that, please, and let us know, 
because essentially we have run into this problem. The 
Government Accountability Office tells us over and over again 
these are the issues; the relaxed oversight, relaxed quality 
inspections. We are finding it--we found it with the Coast 
Guard program, you know, Deepwater. They gave all the contracts 
to the same contractor; the one to design, the one to build, 
the one to oversee. And when all that went wrong, they gave the 
same contract to the same company to fix it.
    We're running into this every time we turn around. I think 
part of what's incumbent upon us is to make sure it doesn't 
continue on. Now, General, you tell us that you have 
essentially gone back to basics here, and I hope that's so. The 
Government Accountability Office reports that's what you tell 
them. There's going to be more oversight of this; you're going 
to have more quality inspectors onsite.
    General McCasland. Yes, sir. The engagement of support 
offices like the Defense Contract Management Agency, field 
offices, the way we engage with the contractors, all of that 
is, frankly--it isn't so much that we forgot the recipe, it's 
that we consciously chose to try to in an unsuccessful manner, 
and we're going back to the methods that Dr. Parkinson used 
when he was a colonel. They've served us well.
    Mr. Tierney. I hope you haven't forgotten the recipe. 
Again, I think if somebody had something that wasn't broken and 
they decided to fix it, I would like to find out who it was and 
what was motivating it. I doubt that it was sheer stupidity, 
but that might be the case. But if something else was 
motivating, we better find out what happened, investigate it 
and see where it leads us on that.
    The other problem I think we're going to have that is 
replete throughout all these different procurement programs is 
people qualified to do the scheduling, is people qualified to 
do the program managing. Are you having difficulty finding 
enough people to qualify to take care of your systems, 
including this particular system?
    General McCasland. Mr. Chairman, that is an issue that does 
concern the Air Force. In fact, the Secretary of the Air Force 
released a plan called the acquisition improvement plan tied to 
his strategic goal of capturing acquisition excellence. He 
released that plan just this week. One of those elements is 
precisely aimed at growing and qualifying and training the 
acquisition work force.
    So I share your concern. The human capital is the heart and 
soul of good oversight, and we're committed to the health of 
that work force. That's the career force that I grew up in. I 
have a personal sense of commitment to growing the next 
generation of leaders in that role, and I'm really pleased to 
see my service Secretary support that agenda.
    Mr. Tierney. Are you able to share a copy of that 
department document?
    General McCasland. We would love to.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.042
    
    [GRAPHIC] [TIFF OMITTED] T5293.043
    
    [GRAPHIC] [TIFF OMITTED] T5293.044
    
    [GRAPHIC] [TIFF OMITTED] T5293.045
    
    [GRAPHIC] [TIFF OMITTED] T5293.046
    
    [GRAPHIC] [TIFF OMITTED] T5293.047
    
    [GRAPHIC] [TIFF OMITTED] T5293.048
    
    [GRAPHIC] [TIFF OMITTED] T5293.049
    
    [GRAPHIC] [TIFF OMITTED] T5293.050
    
    [GRAPHIC] [TIFF OMITTED] T5293.051
    
    [GRAPHIC] [TIFF OMITTED] T5293.052
    
    [GRAPHIC] [TIFF OMITTED] T5293.053
    
    [GRAPHIC] [TIFF OMITTED] T5293.054
    
    [GRAPHIC] [TIFF OMITTED] T5293.055
    
    [GRAPHIC] [TIFF OMITTED] T5293.056
    
    [GRAPHIC] [TIFF OMITTED] T5293.057
    
    [GRAPHIC] [TIFF OMITTED] T5293.058
    
    Mr. Tierney. If you would, we would appreciate it.
    Doctor, do you want to add anything to that just before I 
close out. What is the Department doing with respect to what 
we're told is a shortage of qualified people in the pipeline to 
do program management and to do scheduling on projects of this 
nature?
    Dr. Huybrechts. Finding good people is always difficult. 
Colonel Dave Madden, who I have the highest respect for, who 
runs the GPS program office out in Los Angeles, is one of the 
better program managers I believe that I've met. But he has one 
of the most difficult jobs in the U.S. Government. You manage a 
very large enterprise, it's a very complex system, and it's 
difficult to find good people. We have been trying--I'm not an 
expert on the personnel systems in the Department of Defense. I 
would be happy to find you an expert to bring here.
    Mr. Tierney. I think we may do that. I think we may have a 
hearing with people in here. If this is a problem, as it 
appears to be, and we've had people come to us of late, I 
should tell you, and explain to us that no matter what we're 
talking about in a contract, and the Government Accountability 
Office I think in almost all the programs on the general report 
of overruns and schedule problems indicated that was a real 
serious issue on that. So I think we will want to have a 
separate hearing on that.
    Thank you. Mr. Flake.
    Mr. Flake. I don't have any particular questions at this 
point. I just want to echo what's been said here. It seems that 
we're hearing some, as the chairman put it, happy talk. And 
there are ways to explain why these overruns have occurred, 
both in cost and time. But we want to make sure that the 
lessons are learned and in the future we're not here, as Mr. 
Duncan said, a year from now hearing the same thing, just more 
expensive and more timely at that time.
    So thank you.
    Mr. Tierney. Will the gentleman yield?
    Mr. Flake. Yes.
    Mr. Tierney. One of the questions on that, too, is 
continuity of program managers. I remember that was mentioned 
in the GAO report as well. So what are we doing about the fact 
that people just continually--there was a particular number of 
people that went through that program, seven different program 
managers, each of whom--five of whom served for only 1 year 
each. That can't be healthy for a program this sophisticated 
and complex. So what are we doing about that?
    General McCasland. Well, sir, I believe that particular 
reference was looking at the program management inside 
industry. So it's an expectation that we hold to our suppliers 
that they also field a stable leadership team.
    Mr. Tierney. This is the IIF program, had seven different 
program managers, the first five of whom served 1 year each. 
That's not your colleagues, that's you.
    General McCasland. Well, again, the early days of the IIF 
program were in the 1990's. Today it's our policy to keep the 
wing commanders in place, the program managers, Colonel Madden, 
in place a minimum of 3 years. And we recognize through the 
whole acquisition leadership chain that the continuity of 
acquisition leadership is one of the keys.
    Mr. Tierney. Are you having success holding it for 3 years?
    General McCasland. Yes.
    Mr. Tierney. Thank you.
    Mr. Foster.
    Mr. Foster. You have--do you have an integrated project 
schedule in place.
    General McCasland. Yes, sir. Yes, sir.
    Mr. Foster. And could you provide us with a list of the 
high-level milestones that we can anticipate in the next 1 or 2 
years?
    General McCasland. Yes, sir.
    Mr. Foster. When you come back a year from now, we can 
track you against those.
    General McCasland. Yes, sir.
    Mr. Foster. OK. And in terms of the system degradation, do 
you actually have a good--either a modeling or a lot of field 
experience to really understand this, what's going to happen as 
the satellites stop?
    General McCasland. Right. I feel that the Air Force has 
really the gold standard in--that's been developed by our 
federally funded research and development center of the 
Aerospace Corp. This has been their--their corporate focus 
since they were founded in the early 1960's. So they have 
pioneered and keep the technical research on satellite failure 
modes and effects, actuarial forecasts, device physics 
phenomena in the space environment, the science basis for 
making these kinds of runs. So, yes, sir, I think it is the 
best in the world.
    Mr. Foster. You think it is a well understood degradation 
process.
    General McCasland. Oh, yes, sir, very much so.
    Mr. Foster. I yield back.
    Mr. Tierney. Mr. Flake.
    Mr. Flake. Dr. Huybrechts, as far as streamlining the 
procurement process, are--we know that's been a problem in the 
past, but is that being taken care of?
    And one other question. I just want to make sure that 
Congress isn't part of the problem here. Are there 
congressionally directed projects or contracts that you have to 
deal with that slow the process or complicate the process, 
given the mandate to make sure these contracts are open to 
competitive processes?
    Dr. Huybrechts. I'm not from the procurement process side 
of the Department. That would be our acquisition technology and 
logistics. We have a new Under Secretary there. He has some 
strong ideas, I believe, on how we are going to change the 
procurement process to make it more effective. I wouldn't 
presume to speak for him and the kinds of changes he wants to 
make, but, again, I could take that for the record or bring in 
somebody from his office to discuss it.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.059
    
    Mr. Flake. Let me ask General McCasland that second 
question. Is Congress playing the proper role here; are we 
giving you the flexibility and--with which you need to carry 
this out, or are we complicating the process by directing you, 
perhaps, with congressionally directed earmarks or projects 
that make it more difficult to do your job?
    General McCasland. Well, sir, focusing on the GPS program, 
my sense in interaction with the Congress over the past decade 
has been one of a very healthy interaction with the defense 
oversight committees and a supportive role, both in terms of 
critically examining our plans and in providing the funding 
that we need to execute the program.
    But with that entree, I point out that the GPS III program 
is going to enter into a little more complicated nuance. There 
is a Presidential directive that assigns the responsibility for 
budgeting new civil capabilities to the Department of 
Transportation, and so the synchronization of their budget 
requests in the Congress with the defense budget request, the 
preponderance of the money will be defense. But we have chosen 
as a matter of national strategy to program budget and request 
appropriations from the civil funding line to add to the 
military funding line for this national capability. That's 
going to be new territory for us, and I respectfully suggest 
that would be worthy of careful attention.
    Mr. Flake. Thank you.
    Mr. Tierney. Ms. Chaplain, this is apparently a cost-plus 
contract. Is there a better way to do it?
    Ms. Chaplain. I believe the better way to do it is to focus 
on not making the mistakes in the past. Fixed price for this 
type of program would be difficult because you're trying to 
advance technologies, and there is a lot of unknowns. When 
we've tried fixed-price arrangements before for space programs, 
it was done at the time that we were also trying to implement 
these other kinds of acquisition reforms, and it was very 
poorly implemented, and it resulted in almost disastrous 
consequences.
    So under the contract scenario we are in, I would just say 
they need to exert good oversight over the contractors. They 
need to make sure the program stays stable. They need to make 
sure requirements don't change. They need to really look at 
contractor performance and base the award fees on how the 
contractors performed.
    I think a lot of things have been done on the IIIA program 
to position the program for success, and I'm hopeful that will 
be more successful than other space programs in the past.
    Mr. Tierney. Thank you.
    Gentlemen, do you write into your contracts some protection 
against industry mergers interrupting the course of things?
    General McCasland. Sir, we don't explicitly require them to 
make commitments like that about what they'll do within their 
companies. We make a business agreement with them to deliver 
goods, services and supplies for a period of time.
    Mr. Tierney. But then when they don't do it because they 
are merging or whatever, you just pay them more money. It is a 
contract; it would seem you put things in to protect 
yourselves.
    General McCasland. Yes, we do.
    Mr. Tierney. You don't necessarily say that you are going 
to restrict them from merging and consolidating, but you can 
say that you have some say over whether or not it is going to 
happen if it is going to impact adversely the progress on your 
program.
    General McCasland. Yes, yes, sir. And the tools to protect 
the taxpayers' interest there range from our incentive fee 
program, which has an opportunity to earn money if they 
deliver, and penalties if they don't. We ultimately, even on a 
cost-reimbursement contract, reserve the prerogative to decide 
whether charges are allowable.
    And last, with respect to the contract type, I'd point out 
that the GPS IIIA program at this stage is in its development 
cycle, which is appropriate to use a cost-reimbursement 
contract. But we reserve the prerogative to negotiate a 
different contract class for production articles. For example, 
the GPS IIF program today is--has a mix of a cost-reimbursement 
effort for the first satellites to get that production 
unstable, and then fixed price buys for the last eight, I 
believe.
    Mr. Tierney. OK. Will you have your office prepare for us 
an accounting, then, of the delays that were caused by--and one 
of the reasons you cite for this overrun of costs and the delay 
was the mergers and the consolidations. So provide for us an 
accounting of how many bonuses or fees were not paid when that 
caused a slowdown in an overrun, and what other exercises were 
taken under the contract to protect the taxpayers' rights, 
because I think we have a right to know that they weren't 
getting bonuses and fees and other things for taking self-
interested consolidations and mergers and slowing down the 
project and running us over costs, and at the same time getting 
rewarded for it. And so if you would do that, I would 
appreciate it.
    General McCasland. Yes, sir. I certainly recall even 
recently very low to zero award fees being paid to the IIF 
contractor as we were struggling to turn that program around.
    Mr. Tierney. I would just appreciate you putting that in so 
we can formally see that, if you would.
    General McCasland. You bet, sir.
    Mr. Tierney. Now we have a whole host of problems here 
generally with procurement, not just with the GPS program on 
that, so I want your assurance that you're either dealing with 
them or going to deal with them. One is starting programs too 
early before the design is where it ought to be, or whatever. 
Are you dealing with that?
    General McCasland. Yes, sir. And I think that, you know, 
the GAO noted in this report that we had put in extensive 
precompetition risk-reduction activities into the program. I 
think it's evidence of success that we had a functioning 
engineering brassboard of the entire GPS IIIA payload available 
before we made contract award. It was part of the 
precompetitive risk-reduction activities.
    We passed a serious and thorough scrub by the OSD Director 
of Research and Engineering, who attested to the technological 
readiness, part of OSD's due diligence. So I am confident that 
we started this program on a good foot.
    Mr. Tierney. Now, do you cite any contracting program 
managing weakness? Do you think you have any that exist right 
now, or have you filled all those gaps?
    General McCasland. Sir, I think at this stage of the 
program, the program management strategy is as well tuned as we 
know how to do it.
    Mr. Tierney. All right. So you have no problems with 
technical expertise; you have all you need at your fingertips?
    General McCasland. We--we are adequately resourced for 
executing the program today, sir.
    Mr. Tierney. All right. You see no capability gaps in the 
industrial base?
    General McCasland. Well, the space industrial base is, of 
course, the people who actually build us. I believe the prime 
industry base is healthy and strong. We all have some concern 
about the secondary suppliers, the vendors, the people who 
field independent subassemblies like gyroscopes, and star 
sensors, and space-qualified components. That's an industry 
that is under some stress, and we monitor it very carefully.
    In fact, we have an interagency working group spanning all 
of national security space focused on the health of the space 
industrial base. We exchange information. We provide a forum 
for those vendors to bring correlated problems they are seeing 
across the industry to our attention. And the DDR&E in OSD has 
a certain amount of funding available for support of the 
industry base. In my mind, when I look at industry, that's the 
level that has the risk that concerns me the most, sir.
    Mr. Tierney. OK. But you are doing all you can do about it 
right now.
    General McCasland. Yes, sir, I believe--I believe so.
    Mr. Tierney. What are we doing about protecting against new 
requirements being added as a project is going on and not 
having an impact on that? Are we shutting it off, just deciding 
we're going to have a particular product, that's going to be up 
in this program, new things go in the next end, or what are you 
doing?
    General McCasland. Yes, sir, that's a very important point, 
because as the GAO noted, a part of what made--what contributed 
to the cost growth on the IIF program was the folding in of new 
requirements.
    We have chosen to structure the GPS III program in a way to 
pre-plan those insertions. And what I mean by that is that we 
have a capability list for the final product version of GPS III 
that includes a number of low-risk features and includes some 
high-risk features. We chose to take on the most important and 
lower-risk features first in IIIA and to size the spacecraft, 
its power, its chassis size, the launch size to provide the 
room to grow for the higher-risk features.
    We will make separate decisions as the requirements for 
those higher-risk functions, further power growth, additional 
signals, additional security features, and we'll conduct a 
detailed assessment of alternatives and risk assessment and 
decide what package of those are ready for including in a 
distinct second bloc or potentially a third bloc.
    Now, this isn't a win all around. Our military users had to 
reconcile that they would be patient enough to wait longer than 
they might have. The assurance we gave them is that we had a 
higher confidence of delivering what we had committed to in 
exchange for that. And that appears to be a bargain that is 
holding water. And we welcome your support of that, too, sir.
    Mr. Tierney. Well, it would seem to me at some point 
somebody, either the doctor or you or someone else, would have 
the authority to say, you know what, enough. We planned this 
particular program to do those things, we thought it was what 
we wanted. If something is going to be added on that is going 
to bring this way over cost, and we are behind schedule, you'll 
have to wait for the next bus.
    Who has that authority? Is it you, Doctor?
    Dr. Huybrechts. That authority rests with the joint staff 
requirements process. I would say what I mentioned earlier, 
that 4 or 5 years ago when we recognized that we potentially 
had a constellation sustainment issue, the Air Force came 
forward with a plan. Originally there was no IIIA, B, C; there 
was just a III, and we were going to build the whole thing 
right up front. They came up with a plan where the IIIA is 
really just a low-risk satellite to make sure that we have 
something to keep the constellation going. And then we have 
plans to insert the various capabilities into the later locks.
    Mr. Tierney. And then last I look at the General--the 
Government Accountability Office, and I see they have 
identified nine practices associated with effective scheduling 
estimating. Of those nine, one was met in this IIIF--IIIA 
schedule, one was not met, and seven were partially met.
    Are you focused on that, and are you going to bring that up 
to all best practices?
    General McCasland. Sir, I'd like to take that for the 
record, because as little time as I have had to review this 
report, I wasn't able to actually itemize what those practices 
were. But I would be pleased to go answer that for the record, 
if you would allow me, sir.
    Mr. Tierney. We appreciate it. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.060
    
    [GRAPHIC] [TIFF OMITTED] T5293.061
    
    [GRAPHIC] [TIFF OMITTED] T5293.062
    
    Mr. Tierney. Mr. Flake, anything else?
    Mr. Flake. No.
    Mr. Tierney. I want to thank all of you for your testimony. 
This is helpful to us and, I think, helpful to our next panel. 
It will give them an idea of what is going on, and we will be 
anxious to hear their remarks as well. I would appreciate it if 
you have an opportunity to submit those things that you promise 
for the record at your earliest convenience. So thank you all 
very much.
    And now we'll take a little pause as we set the second 
panel up and maybe come back in 5 minutes.
    [Recess.]
    Mr. Tierney. In the interest of time, we were told that 
we're going to have a vote in a few minutes, and I would like 
to give you the opportunity to hopefully get your testimony in 
before that. But it is only one vote, so if it does ring, it 
will be just a very brief interruption, and we will be back. So 
I apologize for that.
    This panel will probably not take as long as the last panel 
for the fact that we want to hear from you. We may not have 
that much of a question grilling back and forth on that, but we 
want to hear from you about what you know about potential 
issues arising with that and how it will impact your particular 
area on that.
    So now we're going to receive testimony from the second 
panel. Let me introduce each of you.
    Lieutenant General Larry D. James is the Commander of the 
14th Air Force, Air Force Space Command, and Commander of the 
Joint Functional Component Command for Space, U.S. Strategic 
Command, in Vandenberg Air Force Base, California. He leads 
more than 20,500 personnel responsible for providing missile 
warning, space superiority, space situational awareness, 
satellite operations, space launch and range operations. 
General James holds a B.S. from the U.S. Air Force Academy and 
an M.S. from the Massachusetts Institute of Technology.
    Ms. Karen Van Dyke is the Director, Position Navigation and 
Timing, Research and Innovative Technology Administration, at 
the Department of Transportation. Ms. Van Dyke was a member of 
a team that conducted a study for the Office of the Secretary 
of Transportation to identify and analyze GPS vulnerabilities 
and interference mitigation techniques for all modes of 
transportation. Ms. Van Dyke holds both a B.S. and an M.S. from 
the University of Massachusetts at Lowell. Nice to see 
Massachusetts so well represented here today.
    Mr. F. Michael Swiek currently serves as executive director 
of the U.S. GPS Industry Council, which he helped to found with 
the leading U.S. GPS manufacturers in 1991. Mr. Swiek IS also 
currently president of Mike International LLC, a consulting 
practice concentrating on policy and regulatory issues 
affecting various issues in high-technology trade. He served 
for 10 years with the Central Intelligence Agency, working on 
export control and technology security issues. He holds a B.A. 
from Bowdoin College and an M.A. from Georgetown University.
    Mr. Chet Huber is president of OnStar Corp., a wholly owned 
subsidiary of General Motors Corp. He joined General Motors 
Electric Motor Division as a co-op engineering student in 1972, 
and held a variety of engineering, operations and marketing 
roles before joining OnStar. I guess you'd call that job 
security, huh?
    His positions included director of the aftermarket 
business; general director of aftermarket parts and service; 
and general director, sales, marketing and product support. Mr. 
Huber holds a B.S. from General Motors Institute, now Kettering 
University, and an M.B.A. from Harvard University.
    I want to thank all of you for making yourselves available 
here today and helping us out with your testimony. Again, it is 
the policy of the committee to swear in witnesses before they 
testify, so if you would please stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses have answered in the affirmative.
    As with the first panel, your full written statements will 
be entered on the record. There's 5-minute opening statements--
the lights are the same for the second panel as they were for 
the first--and then we'll go to questions if the panel members 
up here have any.
    General, would you please start?

  STATEMENTS OF LIEUTENANT GENERAL LARRY D. JAMES, COMMANDER, 
14TH AIR FORCE (AIR FORCE STRATEGIC), AIR FORCE SPACE COMMAND, 
 AND COMMANDER, JOINT FUNCTIONAL COMPONENT COMMAND FOR SPACE, 
 U.S. STRATEGIC COMMAND; KAREN L. VAN DYKE, DIRECTOR, POSITION 
   NAVIGATION AND TIMING, RESEARCH AND INNOVATIVE TECHNOLOGY 
ADMINISTRATION, DEPARTMENT OF TRANSPORTATION; F. MICHAEL SWIEK, 
EXECUTIVE DIRECTOR, U.S. GPS INDUSTRY COUNCIL; AND CHET HUBER, 
                    PRESIDENT, ONSTAR CORP.

         STATEMENT OF LIEUTENANT GENERAL LARRY D. JAMES

    General James. Chairman Tierney and Ranking Member Flake, 
thank you for the opportunity to be here today. I'm honored to 
be here as the Commander of the Joint Functional Component 
Command for Space.
    It's a privilege to address you on our role in operating 
the Global Positioning System, as well as represent the 
combatant commander users around the globe. My testimony today 
focuses on the importance of GPS to the warfighter, the health 
of our current constellation, and U.S. Strategic Command's 
strategies to ensure the most robust space-based positioning, 
navigation and timing capabilities provided by the GPS 
constellation.
    Certainly, as we have heard earlier, as we look to the 
importance of GPS, we understand that GPS provides that key 
PNT, position navigation and timing, data to users worldwide 
and has truly become essential to U.S. national security and 
economic well-being. GPS is the centerpiece of global PNT 
services, and the GPS constellation enables an ever-increasing 
arsenal of military and civil applications.
    GPS provides critical services to our forces around the 
globe. From infantrymen walking the streets of Fallujah, to 
ships combating piracy off the straits of Somalia, and to 
aircraft patrolling our country's borders, it is evident that 
GPS is critical to successful military operations. Strong 
communications links, operational relationships and reachback 
ensure that U.S. Strategic Command provides the combatant fix 
that the U.S. combatant commanders need around the globe.
    As we look at our constellation health and status, we have 
today exceeded requirements by maintaining a constellation of 
30 operational satellites, and we've achieved sub-3-meter 
accuracy with that constellation. As you heard earlier, by 
employing residual operations and power management, we have 
options to maintain full GPS capabilities and ensure continued 
support to global users.
    We must continue to focus on future requirements for GPS 
capabilities. Matching future user requirements with 
technological advances will allow U.S. Strategic Command to 
provide the most advanced and reliable space effects in 
response to the growing demands of the Nation's GPS users.
    In conclusion, the U.S.' dependence on GPS across our 
military, civil and commercial users requires PNT capabilities 
to ensure our ability to safely and effectively operate in 
diverse environments. The DOD must continue to build the 
relationships, processes and capabilities within the global 
space community that allow us to operate effectively together 
to meet our national security objectives.
    Thank you very much.
    Mr. Tierney. Thank you, General.
    [The prepared statement of General James follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.063
    
    [GRAPHIC] [TIFF OMITTED] T5293.064
    
    [GRAPHIC] [TIFF OMITTED] T5293.065
    
    [GRAPHIC] [TIFF OMITTED] T5293.066
    
    [GRAPHIC] [TIFF OMITTED] T5293.067
    
    [GRAPHIC] [TIFF OMITTED] T5293.068
    
    Mr. Tierney. Ms. Van Dyke.

                  STATEMENT OF KAREN VAN DYKE

    Ms. Van Dyke. Chairman Tierney, Ranking Member Flake and 
members of the subcommittee, I am Karen Van Dyke, Acting 
Director for Positioning Navigation and Timing in the U.S. 
Department of Transportation's Research and Innovative 
Technology Administration [RITA]. I appreciate the opportunity 
to appear before you today to discuss the criticality of the 
Global Positioning System to civil user community.
    GPS technology is increasingly woven into the fabric of 
American society, from cars and planes to cell phones and 
wristwatches. It improves productivity and efficiency in many 
areas of commerce. For example, today's construction, farming, 
mining, shipping, surveying and traffic management systems have 
become dependent on GPS. It allows agriculture operations to 
continue through low-visibility conditions, such as rain, dust, 
fog and darkness, and to apply chemicals precisely, reducing 
environmental impact while also reducing production costs.
    GPS also furthers the scientific aims, such as weather 
forecasting, earthquake prediction and environmental 
protection. Furthermore, the precise GPS time signal derived 
from atomic clocks is embedded in critical economic activities, 
such as synchronizing communication networks, managing power 
grids and authenticating electronic transactions.
    Of particular interest to the Department of Transportation 
is the Federal Aviation Administration's next generation air 
transportation, NextGen, program. NextGen is a wide-ranging 
transformation of the national air transportation system to 
meet future demand and support economic viability of the 
system.
    NextGen will reduce fuel burn and greenhouse gas emissions, 
allow more direct time-based routing, enable safer operations, 
and reduce runway incursions. United Airlines already has 
pioneered the use of tailored arrivals based on GPS from 
Honolulu to San Francisco, with a fuel savings at 1,600 pounds 
per flight.
    GPS is the foundation for NextGen navigation and 
surveillance. The continuity of funding and integrity of the 
planned launch schedule of the GPS constellation is vital to 
the Nation moving ahead with NextGen.
    I would like to thank the Air Force for dedicated service 
in providing extremely reliable operation of GPS since it 
achieved initial operating capability in 1993. The United 
States clearly is the leader in space-based positioning, 
navigation and timing, and we must continue to maintain and 
improve GPS to maintain this U.S. technology leadership 
position.
    Sustainability of the GPS constellation is critical to 
users worldwide. The Department of Transportation is committed 
to modernization of GPS, and fully funding the DOT portion of 
GPS modernization for new civil capabilities is critical to 
ensuring that the GPS III program remains on schedule to ensure 
future constellation sustainment.
    The Department of Transportation is confident that the 
Department of Defense will continue to operate at or above the 
minimum GPS performance standard commitment of 21 healthy 
satellites 98 percent of the time, equivalent to 24 healthy 
satellites 95 percent of the time, and will find innovative 
methods to extend the life of the GPS satellites to prevent any 
gaps in availability. We recognize that the GPS system has 
exceeded performance commitments with 30 satellites currently 
operational, and that some users may have come to expect this 
level of service.
    The Department of Transportation is a provider as well as a 
user of GPS services, augmenting the GPS signal to improve 
accuracy and integrity. FAA provides the Wide Area Augmentation 
System [WAAS], and RITA coordinates resources and plans for the 
inland component of the Nationwide Differential GPS System 
[NDGPS], operated and maintained by the U.S. Coast Guard. The 
U.S. Air Force and U.S. Coast Guard and Federal Aviation 
Administration have agreements to coordinate notification of 
GPS performance and any disruption of GPS service to the user 
community.
    When the constellation is at its minimum GPS performance 
commitment, outages for aviation and other users will be 
experienced on a routine basis, which could result in 
complaints and economic impact. For users who equip with GPS 
augmented by WAAS, these impacts are reduced, supporting 
minimum availability requirements of 99 percent or more. 
However, like any radio and navigation system, GPS is 
vulnerable to interference that can be reduced, but not 
eliminated.
    In 2001, RITA's Volpe National Transportation System Center 
issued a vulnerability assessment of the transportation 
infrastructure relying on the Global Positioning System. The 
findings of this assessment indicated that there was awareness 
within the transportation community of risks associated with 
use of GPS as a primary means for position determination and 
precision timing.
    Due to the reliance of transportation on GPS signals, it is 
essential that threats be mitigated, and alternative backups be 
available, and the system be hardened for critical 
applications. DOT has determined that sufficient alternative 
navigation aids currently exist in the event of a loss of GPS 
based service.
    Potential backup capabilities to GPS are being explored as 
part of a National Positioning Navigation and Timing 
Architecture study initiated in 2006 by the Department of 
Defense and the Department of Transportation. The overarching 
goal of this architecture, with GPS as its cornerstone, is 
intended to overcome identified capability gaps and achieve an 
evolutionary path to providing integrated, space-based, 
terrestrial and autonomous solutions in the 2025 time period 
that will ensure the continuity of government-provided PNT 
services.
    In conclusion, I would like to thank the committee for 
allowing me to discuss the civil user perspective of GPS. The 
Department of Transportation is committed to our--continuing 
our strong working relationship with the Department of Defense 
to maintain our global leadership in space-based PNT.
    I'd be glad to answer any questions you have.
    Mr. Kucinich [presiding]. Thank you for your testimony.
    [The prepared statement of Ms. Van Dyke follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.069
    
    [GRAPHIC] [TIFF OMITTED] T5293.070
    
    [GRAPHIC] [TIFF OMITTED] T5293.071
    
    Mr. Kucinich. Mr. Swiek, you may proceed.

                 STATEMENT OF F. MICHAEL SWIEK

    Mr. Swiek. I would like to thank Chairman Tierney, Ranking 
Member Flake, and Mr. Kucinich, and distinguished members of 
the subcommittee for providing an opportunity today to discuss 
this important topic.
    Global Positioning System [GPS], is one of the great U.S. 
success stories involving shared national assets. GPS is a 
national model of successfully balancing military advantage and 
civilian equities to serve a broad and diverse range of 
national interests from national security and public safety to 
enabling critical infrastructure, advancing scientific 
research, facilitating local government productivity and 
enhancing the productivity and competitiveness of diverse 
industries that are important to our economy and serving 
millions of individual Americans every day.
    GPS is a model of government-industry cooperation 
contributing to the national economy through the 
entrepreneurial creation of companies, industries and jobs 
deriving value for users from integrating GPS positioning 
navigation and timing information into applications and 
solutions.
    The initial military investment in GPS has not only met 
military requirements and demonstrated invaluable military 
utility for the warfighter, it also provided a signal for 
civilian use at little to no additional cost. The dedicated men 
and women of the U.S. Air Force Space Command have achieved 
superb operational management of the GPS constellation for all 
users under G--under Air Force stewardship of GPS. This 
operational excellence, together with predictable U.S. policy 
over two decades, has given the global community a stable 
signal that has provided a solid foundation for tremendous 
private-sector investments in receiver and applications 
innovation. The result of this enlightened U.S. approach has 
been the worldwide adoption of GPS as a global information 
utility, providing major productivity benefits to the Nation.
    It is difficult to say with precision just how big the GPS 
industry is because it touches and contributes to so many 
different applications and areas in so many ways. Some recent 
estimates have impressive numbers, such as 15 to 50 billion per 
year or more, depending on how one counts the direct and 
indirect effects of GPS.
    GPS is a core information technology from many industries 
that are key to the U.S. economy. Examples include agriculture, 
aviation, construction, vehicle navigation, fleet management, 
public safety, geographical information systems, land use, 
environmental monitoring, earthquake monitoring, wildlife 
monitoring, disaster management, telecommunications, E911 cell 
phones, mapping, mining, marine transportation, surveying, 
infotainment. I could go on probably for hours, but there is--
trust me, there is at least a couple of hundred more.
    More impressive than the aggregate value of United States--
or worldwide GPS industries--is the effect that GPS can have on 
the productivity and competitiveness of key industries. GPS 
enhances productivity at times as much as 30 percent through 
exploitation of precise positioning, navigation and timing 
information.
    It is not an exaggeration to say that GPS is everywhere, 
not only where we commonly and almost ubiquitously see it, such 
as in consumer car-navigation devices such as OnStar and the 
Garmin on the dashboard; it is there, essential and critical 
even where you don't realize it. Whenever you make a call on 
your cell phone, withdraw money from your ATM, send an e-mail, 
you are using GPS. GPS precise time signals are essential tools 
for synchronizing the networks through which the services 
operate. Turn on a light, and you are probably using GPS as 
well, as electric power grids similarly use GPS precise time 
signals for synchronization. The road you drive on may have 
been built by construction equipment guided by GPS. Not only 
has the term ``GPS'' become a common term in the public 
lexicon, it has become an essential and critical utility on 
which public and private infrastructures depend.
    U.S. industry has been a major factor and leader in the 
development of today's GPS industry through entrepreneurial 
vision, technological innovation and private-sector investment, 
but we have not done this alone. The U.S. Government has 
promoted and encouraged this development by establishing, 
maintaining and reinforcing a stable policy framework that has 
consistently received farsighted and bipartisan support. It has 
been a true partnership of shared visions, discussions and 
debates, cooperation and coordination. This has been possible 
through the open dialog that has taken place since the early 
days of GPS, some 25-plus years ago, between civilian and 
military, industry and government on technical and policy 
issues as the technology system and applications have evolved.
    As we move forward to new generations of GPS satellites and 
signals, the challenge is to maintain this impressive level of 
reliability and stability. Successful adoption of modernized 
civilian GPS signals will occur if the installed user base can 
continue to trust the consistent and stable policy framework 
that the U.S. Government has provided GPS for two decades. The 
new signals will need to sustain a legacy of accuracy, 
availability and reliability established over the past 20 
years.
    The adoption of GPS is a testament to the trust of users in 
Air Force stewardship. Users rely on the ability of the Air 
Force to operate and maintain the satellite constellation and 
stable signal structures that serve the warfighter and diverse 
civilian users in a way that both enhances our national and 
economic security. We strongly encourage the continuation of 
the open and balanced dialog between all stakeholders, users 
and providers, civilian and military, industry and government. 
Our industry association strives to be an objective information 
resource to support this dialog.
    Thank you for the opportunity, and I'd be happy to answer 
any questions you may have.
    Mr. Kucinich. I thank the gentleman.
    [The prepared statement of Mr. Swiek follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.072
    
    [GRAPHIC] [TIFF OMITTED] T5293.073
    
    [GRAPHIC] [TIFF OMITTED] T5293.074
    
    [GRAPHIC] [TIFF OMITTED] T5293.075
    
    [GRAPHIC] [TIFF OMITTED] T5293.076
    
    [GRAPHIC] [TIFF OMITTED] T5293.077
    
    Mr. Kucinich. Mr. Huber, before we go to you, there is a 
vote on right now. The chairman, Mr. Tierney, went to vote. 
He's coming back momentarily. So what we're going to do, I'm 
going to declare a 5-minute recess. I believe that Mr. Tierney 
will probably be back in a minute, but I'm going to go to make 
sure that I don't miss my vote. And so we will be in recess, 
let's call it until the call of the Chair, and my guess is it 
will be within 5 minutes. Thank you.
    [Recess.]
    Mr. Tierney [presiding]. My apologies. The vote was closer 
than it was to ending.
    I've read all your testimony, so I don't want you to think 
we're ignoring you on that. We read them last evening.
    So, Mr. Huber, I understand that you were about ready to 
put yours on the record, and I ask you to do so.

                    STATEMENT OF CHET HUBER

    Mr. Huber. Thank you, Mr. Chairman. I am Chet Huber, the 
president of OnStar, a wholly-owned subsidiary of General 
Motors Corp. I also serve as a member of the NASA PNT Advisory 
Board, and I've also served on the CDC's Advisory Committee on 
Injury Prevention and Control.
    With nearly 6 million active subscribers, OnStar is the 
leading telematics service provider, employing over 2,200 
individuals in the United States and Canada. OnStar is now 
standard on virtually all General Motors's vehicles and has 
developed a prominent national brand position.
    Our core safety, security and peace-of-mind services 
include automatic crash response and emergency services, which 
we deliver from three call centers in Pontiac, MI; Charlotte, 
NC; and Oshawa, Ontario, Canada. Other services include turn-
by-turn navigation, stolen vehicle location assistance, and 
monthly OnStar vehicle diagnostic e-mails. We also offer one-
button, hands-free, prepaid wireless calling.
    In a typical month, after call screening, we provide unique 
and critical support for public safety agencies in responding 
to over 2,000 automatic crash notifications and over 10,000 
occupant-initiated button presses. These include heart attacks, 
strokes and crashes not triggering an automatic call. Last 
November, OnStar marked its 100,000th automatic crash response.
    Monthly, we also pass on to public safety over 6,000 Good 
Samaritan calls for everything from crashes involving other 
vehicles, to roadway hazards, to possible AMBER Alert 
sightings; and we assist with over 500 stolen vehicle location 
requests, including on many new vehicles the ability to 
actually slow down a vehicle to avoid a high-speed pursuit.
    Other monthly service statistics include the delivery of 
3.4 million monthly diagnostic e-mails, nearly 1 million turn-
by-turn routes, and over 53,000 remote door unlocks.
    Delivering these services and growing to our current scale 
has required deep and fundamental technological innovation as 
we've uniquely integrated cellular, GPS and voice recognition 
with extensive on-board and off-board software. This has 
required hundreds of millions of dollars of investment and 
resulted in the filing of over 500 patent applications, with 
new filings still occurring at the rate of once every 6 days.
    A critical element in our delivery of services is location. 
OnStar use the civilian L1C/A signal to deliver our location-
based services like automatic crash response, stolen vehicle 
location assistance, and turn-by-turn navigation. We also used, 
directly or indirectly, the GPS timing signal to enable other 
valuable services like remote door unlock and diagnostic e-
mails. An accurate, available and reliable GPS constellation is 
at the heart of our capability to deliver these services.
    We offer three recommendations for your consideration. 
First, we must address the health of the current constellation. 
We are concerned that a recent report shows that eight of the 
current satellites are one component away from total failure. 
Loss of signal will immediately affect GPS accuracy and 
availability.
    Second is the GPS system is modernized. It's imperative 
that the U.S. Government formally commit to preserving the L1C/
A signal to ensuring backward compatibility for legacy 
applications with no loss of performance from current levels. 
Automotive applications of GPS, like OnStar, are embedded into 
the vehicle's electrical system and subjected to extensive 
validation testing. Because of this, it is impractical to 
retrofit GPS-related hardware and ensure the reliable delivery 
of services to subscribers. Therefore, the benefit--to the 
benefit of our millions of customers as well as others facing 
similar legacy issues, we are asking Congress and the executive 
branch to work together to develop a policy that supports 
backward compatibility at current performance levels.
    Regarding performance, it is important to understand that 
the current GPS system is performing at a level well above the 
specified minimum, and operators have come to use that 
performance to improve and enhance services. Any modernization 
initiative that degrades backward-compatible performance, such 
as reducing the number of satellites making up the 
constellation, would likely adversely impact the provision of 
services by OnStar, including the quality of location 
information we provide to public safety, thereby potentially 
increasing the response time of public safety personnel to 
crash victims and others in need of emergency assistance.
    Our third recommendation, and this is also important in 
legacy applications, is that we commit to maintaining the 
current PRN code for the primary orbital slots as satellites in 
those slots are replaced. Legacy hardware is not capable of 
being expanded to accommodate more than 32 slots, so 
renumbering above 32 will likely affect performance of legacy 
applications.
    Thank you, Mr. Chairman. I look forward to your questions.
    Mr. Tierney. Thank you.
    [The prepared statement of Mr. Huber follows:]

    [GRAPHIC] [TIFF OMITTED] T5293.078
    
    [GRAPHIC] [TIFF OMITTED] T5293.079
    
    [GRAPHIC] [TIFF OMITTED] T5293.080
    
    [GRAPHIC] [TIFF OMITTED] T5293.081
    
    [GRAPHIC] [TIFF OMITTED] T5293.082
    
    Mr. Tierney. Thank all of you for your testimony.
    Mr. Huber, those concerns that you raised, the final three 
on that, are you having any dialog at all with the Department 
of Defense now or with the combined committee about making sure 
that those are addressed?
    Mr. Huber. We actually have had an opportunity to 
participate as a member of the PNT Advisory Committee, and 
that, I think, is one of the reasons that committee was formed 
by NASA to draw in comments by private industry and other 
constituencies. And we've also had extensive dialog with the 
U.S. Department of Transportation and others. So we are making 
those points----
    Mr. Tierney. And your sense is that you are being heard?
    Mr. Huber. Yeah. Our sense is that they understand the 
issues, and we are hopeful that they will be comprehended in 
the future strategy.
    Mr. Tierney. I have sort of a painless approach to this, I 
hope, for all of you. There's really three things I think we 
want to know and put on the record from you. I'm going to lay 
all of them out and then just go left to right and give you a 
chance to respond.
    We are interested in the awareness throughout either your 
particular entity or industry that you--or area that you 
represent, the awareness of concerns raised by the Government 
Accountability Office's report. We would like to know if you've 
identified potential mitigation strategies to lessen the effect 
on your company or entity or association in the event there is 
a diminished availability to the worst-case scenarios laid out 
in that report. And last, what's your status of preparation to 
implement any such strategies? General.
    General James. Yes, sir. In terms of the awareness, 
certainly at the JFCC Space, my position in Strategic Command, 
Air Force Space Command, all of those entities, because we are 
so closely intertwined with the acquisition community, we 
certainly are very aware of the GAO report, of the 
constellation management issues and those sorts of things.
    In speaking for the broader combatant commanders out there, 
the CENTCOMs and the PACOMs of the world, I can't say that they 
are necessarily aware that there is a potential of degradation 
in the future. Their concern obviously is more near-term 
focused, am I getting my GPS signal today and so on.
    Certainly as a representative of those combatant 
commanders, we go out and educate the theaters on what they can 
and can't do with all of our space systems, and we will 
continue to do that over time as this unfolds. So that's kind 
of from an awareness perspective.
    Mr. Tierney. Except one of the things I thought I heard in 
the first panel is one of the strategies from the military to 
maybe deal with this issue is to use some and power down some 
of the backup in certain cases or whatever. I would assume 
you're exempting out the battlefield people from that type of 
distinction, or do they also have to make that kind of 
consideration when they use the system?
    General James. No, sir. The intent is obviously not to 
infect--not to affect any users. In terms of the potential 
mitigation strategies, which is where I would address that 
question, we, as the operators of GPS, out of Schriever Air 
Force Base in Colorado, have a variety of things that we look 
at. Certainly, first of all, we have residual satellites. We 
generally operate a certain number of what we call PRN codes 
for the constellation. So right now we have three satellites 
that are not a part of that constellation, but that can still 
provide an effective navigation signal. That's due to the 
limitations of the ground system in terms of how many 
satellites we can actually operate in the constellation.
    So we have three residual spacecraft right now. We bring 
those out of residual mode every 6 months to test them and make 
sure that they have a valid navigation system. So that's one of 
the mitigation strategies we currently have.
    As satellites, older satellites, no longer fit in the 
constellation, we still retain them as a viable system that we 
can bring in should we have an unexpected failure.
    The second piece of that, as you heard earlier, is power 
management, that is one way to, again, extend the life of a 
particular spacecraft. And again, there is a lot of analysis 
that will go into that in terms of how does that affect the 
other user, the new data detection system user. Again, as you 
heard, as we continue to launch new satellites, we continue to 
populate that new data detection system capability, and they do 
not require a full 24 satellite capability. So we have options 
there with the older satellites to power manage and extend the 
life of those particular spacecraft.
    And third, as you also heard earlier, the GPS constellation 
isn't kind of an on or off thing, it's a dynamic, integrated 
assessment of if you get down to a certain level of satellites, 
where do you have less accuracy, where do you have less 
coverage time and so on. And we manage that by where we 
actually place the particular spacecraft in the constellation. 
So in terms of how we mitigate this, we do have options to make 
sure that if we do create an issue with a less accurate area, 
we can put that perhaps over in an area where there are very 
few people or very few operations.
    And then finally, in term of your status in preparing for 
this, we do think about this, we have thought about this, and 
we do have plans to address this as we move to the future and 
we see how the constellation evolves and how those satellites 
are delivered to us for launch.
    Mr. Tierney. Thank you very much.
    Ms. Van Dyke.
    Ms. Van Dyke. Yes, thank you, Mr. Chairman.
    In terms of the awareness concerns, I think the GAO has 
done a really good job within the government reaching out to 
the government agencies to circulate their draft report. But, 
of course, it hasn't been released to the public yet, so as it 
is released, certainly our job in representing the civil 
community is to ensure that there is awareness.
    But having said that, the Department of Transportation, and 
particularly our organization, RITA, leads the Civil GPS 
Service Interface Committee, which is the public outreach of 
the GPS, and at all of our meetings we have the GPS and Air 
Force Space Command give us updates on the constellation. And 
so certainly the awareness of some of the status problems, the 
availability of satellites, some of the potential problems have 
been briefed at the meetings.
    And also, as I mentioned in my opening remarks, the Volpe 
National Transportation System Center had done a vulnerability 
assessment. And so while it's a separate problem, being 
concerned about interference to the signal, a lot of the 
mitigation would be the same.
    So we have certainly tried to make the user community aware 
of potential interference, the need to integrate GPS with other 
navigation aids or have operational procedures to mitigate the 
problem, which would also apply to any degradation due to 
availability of GPS satellites.
    In terms of the status of the preparation, again, it is 
very similar to the need for backup systems to mitigate against 
interference. So we have been aware and certainly working with 
the user communities, particularly for federally provided 
systems, to ensure for transportation safety of life that we do 
not have any degradation of service, and that continues to be 
an ongoing challenge as GPS just becomes integrated into every 
single application. And often, particularly for timing 
applications, it is a silent enabler that many do not even have 
awareness of how well and how widely it is used in our 
communication systems.
    Mr. Tierney. Thank you.
    Mr. Swiek.
    Mr. Swiek. Thank you, Mr. Chairman.
    As far as awareness goes of potential gaps in GPS or 
degradation of services, answer that from our community, which 
is primarily the receiver manufacturers and to some degree the 
user and customer community, the answer is yes and no. Among 
the technical people in the companies manufacturing the 
receivers, yes, they are aware of constellation status. Yes, 
they receive briefings from the Air Force at different 
conferences, they see the status of the constellation over a 
period of years, they monitor that. So are they aware there is 
a potential degradation? Yes.
    When you start getting to more the public at large, the 
users of GPS particularly in the consumer area, I would say 
there the awareness is probably nowhere near as great, mainly 
because GPS works and has worked reliably for many, many years. 
When you go to the faucet and turn on the water in your house, 
it works; you don't think about it. You only think about it if 
you have a warning that something imminent is going to happen 
or has happened and you need to take adjustments to compensate 
for that.
    So the awareness issue, yes and no. Engineers, technical 
people, people in the manufacturing community, yes.
    What would be the impact of gaps in coverage, degradation 
of services? Again, difficult to say because of the broad scope 
and reach of GPS into different types of applications. 
Mitigation plans and strategies, yes. Again difficult to say. 
Depends on if it happens, when it happens, where it happens, to 
whom it happens.
    Degree of disruption, again difficult to pinpoint exactly. 
There is a wide variety of areas, public safety areas, like air 
transportation, like marine transportation, E911, some of the 
critical timing applications. If there was a serious 
degradation that would cause a disruption or outage of GPS, 
yes, it would be felt and noticed.
    However, the people who put these systems together are very 
prudent and very cautious, so there are usually back-up systems 
already in place, because not only from a degradation of 
constellation status, but there are other factors that could 
cause vulnerabilities to the system. And these have largely 
been accommodated to a certain degree.
    As far as the consumer end. If there is a degradation of 
service, well, you tend to get that anyway when you are using 
GPS in a casual recreational environment now. The GPS unit in 
your car frequently is blocked by tall buildings, heavy tree 
coverage, etc., as you're driving along. This, in effect, 
reduces the number of effective satellites you can see or the 
optimal navigation solution that you are using.
    Does this mean the whole system goes down, and it becomes 
useless? No. Again, it may compromise some degree of accuracy 
or availability, but in general it doesn't cause a major 
problem. If this becomes systemic and endemic over a long 
period of time, then I think the biggest problem you see is a 
loss of confidence of--in GPS as a market force, and that can 
have some consequences. But in general the Air Force has done a 
marvelous job of giving a signal that nobody has to think 
about, they only use and take benefit from. So I hope this 
clarifies some things for you.
    Mr. Tierney. No, it is helpful. And I think your part of 
this is that the GAO report is, in fact, a warning shot. It is 
not imminent, it is not something that is going to slap people 
in the face, but it is at least a notice to people that we 
better start paying attention, we better start working through 
this.
    You want to add?
    Mr. Swiek. Add one more thing. In this regard we haven't 
seen the full GAO report yet. Is it released to the public?
    Mr. Tierney. Today. That's why the hearing.
    Mr. Swiek. I will make sure our member companies receive 
that. But this type of awareness building along with the 
outreach at the Air Force and Department of Transportation, 
Department of Defense due to the civilian community I think 
shows a responsible stewardship of GPS. They don't hide things 
and sweep them under the rug. It is there so everybody knows. 
And this, I think, is another hallmark and good sign of prudent 
U.S. stewardship of GPS.
    Mr. Tierney. Mr. Huber, we know you're aware, because of 
the content of your testimony, of course, or whatever. But in 
your particularized use for it, what strategies would put in 
place?
    Mr. Huber. Yeah. We are very aware, not of the GAO report, 
but we are absolutely looking forward to seeing that. We 
thought about this, as you might expect, because we're selling 
a commercial product today with millions of customers in it.
    The heart of what we do is an emergency response to things 
like the crash of a vehicle. And so we have been developing 
methods, even in those situations where we are strained today, 
like in urban canyons, to actually we've created unique 
software in the vehicle. We use the wheel speed sensors from 
antilock brake systems to provide dead reckoning that gives us 
an ability to keep an accurate location on the vehicle within 
bounds as we're shaded from GPS.
    We are starting now actually with the launch of the new 
Camaro, we are actually building gyros in the vehicles to give 
us the next level of precision. And that will help us in any 
degradation sense, so it helps us be better at our normal 
services. It will also help us in any scenario where we're 
otherwise shaded, in places like the Big Dig in Boston. I mean, 
it gives us a great opportunity to get people through that the 
way they want to come through it.
    The thing that is of most concern to us longer term is in 
cases where there are literally gaps, geographic gaps, in 
coverage across the United States that move depending on what 
the constellation configuration looks like and how many 
satellites are up. I mean, if you saw a map from our last 
November announcement of our 100,000th crash response, you can 
see we populate the United States. There are crashes everywhere 
in this country, not just in very populated areas. And so we 
are actually working with Verizon Wireless as a key technology 
partner for us in our most extreme case of crash response to 
see what we might be able to use in the case of a missing GPS 
component to be able to use their network drive solutions to at 
least be able to help us respond in an emergency case. It won't 
help us in a navigation scenario, but our main commitment it 
the emergency community.
    Mr. Tierney. Thank you.
    Mr. Kucinich is recognized for 5 minutes.
    Mr. Kucinich. Thank you, Mr. Chairman.
    To General James--and, Mr. Chairman, you may have asked 
some of these questions. I just returned, so I'm not--if I 
duplicate it, I apologize ahead of time. Who updates the GPS 
data, and how often is it updated?
    General James. Sir, if you're referring to the data that 
goes into the satellites, that is done by the Operation 
Squadron at Schriever Air Force Base. They are solely dedicated 
to managing that constellation and providing uploads when 
required. They can determine when a signal is starting to 
degrade below a certain level, and they actually put an upload 
into the spacecraft to update its position so that we then 
maintain that high level of accuracy. So that's the 
responsibility of the Air Force out of Schriever Air Force 
Base.
    Mr. Kucinich. Where do you get the data from though?
    General James. Sir, the data is from our ground network of 
systems around the world that monitors GPS at different 
locations, at Ascension Island, Hawaii, Guam. So we are 
constantly looking at the constellation and the satellites and 
measuring their accuracy, because over time that accuracy does 
degrade, and so we monitor that 24 hours a day, 7 days a week, 
and provide those uploads into the spacecraft as required.
    Mr. Kucinich. So the accuracy of the information at any 
given time, would you ascribe a percentage to it?
    General James. Well, sir, again, our intent is to maintain 
a worldwide accuracy below 3 meters. And so----
    Mr. Kucinich. Of what, please?
    General James. Below 3 meters. Now, again, that's better 
than the specification that we have, because we have a good 
number of satellites with very accurate atomic clocks on board. 
But again, worldwide we have the ability to monitor those 
accuracies around the globe. We have the software that tells us 
exactly what the accuracies are at any time and given location.
    Mr. Kucinich. Does the Department of Defense lease the 
information that it has to private contractors, or sell it, or 
in any way distribute it to other contractors?
    General James. No, sir, we do not. If you're talking about 
that knowledge of what accuracy a GPS satellite has, that's 
actually inherent in the signal of the GPS, so it's not leased 
or sold, it's available.
    Mr. Kucinich. It's--we know, for example, there are 
companies who--who sell GPS services.
    General James. Yes, sir.
    Mr. Kucinich. They don't have their own network the way the 
Department of Defense has. What--how are they able to do that?
    General James. Sir, I believe a couple of things. When you 
say selling GPS services, one is a GPS receiver.
    Mr. Kucinich. Selling receivers that they then get the same 
information through that receiver that anybody else would get? 
Is that what you are saying?
    General James. Yes, sir. Absolutely. Or they may create a 
service where they use GPS--for example, mechanized farming--
that they sell that overall service, which involves a GPS 
receiver and other processes, to execute that.
    Mr. Kucinich. But anybody's free to do that; is that right?
    General James. Yes, sir.
    Mr. Kucinich. But the underlying technology is--and the 
mapping and the updating of it is accomplished through the 
resources of the U.S. Government; is that right?
    General James. That's correct.
    Mr. Kucinich. Are there any other nations that are involved 
in a cooperative effort with us on that?
    General James. Sir, to my knowledge there are no other 
nations providing funding for the GPS. We operate the system, 
and we provide that to our allies without charge.
    Mr. Kucinich. And do other nations help provide the data; 
where we don't necessarily have people present to provide the 
information, do we have gaps that are being filled in?
    General James. No, sir, it is the worldwide sites. For 
example, the Ascension Island site, certainly that is a British 
island, so we have agreements with the British to operate this. 
But we provide for all the operational costs around the world.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Thank you, General.
    Mr. Tierney. Thank you.
    I would like to give each of you an opportunity to share 
with us anything that you think we ought to know and didn't 
have the foresight to ask before I wrap up. That doesn't mean 
there necessarily is something, but I give you the opportunity 
anyway.
    General.
    General James. Sir, just briefly I think, again, I would 
state as we look at GPS accuracies and GPS capabilities, it is 
a very layered problem. As we said earlier, it is not a black-
and-white thing. We can manage this, we can look through in 
terms of power, in terms of clocks, in terms of updates and who 
will replace the satellites in the constellation to make sure 
we provide the capability that we need to provide where we need 
to provide it. I would leave that thought for the committee.
    Mr. Tierney. Thank you.
    Ms. Van Dyke.
    Ms. Van Dyke. Yes, Mr. Chairman. I would just like to 
reiterate the Department of Transportation's commitment to the 
modernization of GPS for new civil capabilities. As Major 
General McCasland said, the Department of Transportation is now 
providing funding for those capabilities, and it is important 
for the sustainment for the GPS III constellation that we have 
the adequate funding to provide to the Air Force. And I would 
just like to reiterate our strong working relationship with the 
Department of Defense. I think that we have had really good 
information sharing and a very cooperative process, and I 
certainly anticipate that will continue.
    Mr. Tierney. Thank you.
    Mr. Swiek.
    Mr. Swiek. I'd just like to emphasize that GPS is really an 
example of government done right. You don't hear that too often 
these days.
    Mr. Tierney. Unless you account for the 100 and something 
percent overrun in cost and 3 years in delays. It is 
interesting, it goes to Mr. Duncan's point. There's not a bit 
of upset or anger of anybody in here on that, and it is sort of 
startling when you think about it. It was a $700-something 
million project that cost $870 million more on that, and 3 
years late, and we don't get a blink. It is just interesting, 
you know. If that were an education program or something like 
that, people would be going ballistic.
    Mr. Swiek. Both my parents were accountants, and they would 
see an awful lot of fault with that as well. But as far as the 
delivered performance of GPS, before----
    Mr. Tierney. Once it gets going, it does well is what 
you're saying.
    Mr. Swiek. Yeah. It is really a great success story. The 
main thing is maintain the integrity of the signal, maintain 
the delivery performance, maintain the dialog between industry/
government, between military/civilian users, and the forums 
we've had, because it really has been a wonderful, cooperative 
approach.
    Delays, outages, overruns, etc., yes, these are all of 
concern. As the system matured and expanded, these maybe were 
inevitable, but they need to be addressed, and for that regard 
we are glad that the subcommittee and others in government are 
able to look at this. So continue on.
    Mr. Tierney. Mr. Huber.
    Mr. Huber. I can only say the GPS system has evolved into 
an amazing public utility. And I would say that things like 
OnStar were probably not conceived of when those satellites 
were launched.
    I would suggest that if you project any vision of a future, 
this system will spawn incredible further innovation that will 
bring a range of benefits to society and spawn technology and 
job creation.
    And so thinking of this today, it is almost unfair to not 
understand what hasn't been invented yet, but this is ripe 
territory for commercial applications in particular and those 
that overlap with public-sector agencies to create a better 
future for a lot of people. And so I would say that's the 
vector that this thing is headed on.
    Mr. Tierney. I thank you for all your comments. Look, this 
has become an incredible system, and I agree with you the 
technology is astounding. It has done a lot of good things.
    One of the reasons why the subcommittee is so intent on 
having the oversight is we need this to continue working. Our 
reliance on national security issues, obviously, are very 
serious and very critical, but, as I said, in lightening 
effects on the industries and the civil market as well. So we 
want to make sure that it functions and it comes up in a timely 
manner and doesn't get degraded, but we do also have that 
responsibility in seeing that it happens on time and within 
budget, within reason, because we don't have an unlimited 
budget.
    We have a lot pressures on this country, and so we want to 
try to make sure that we have a continuation of these hearings. 
This will not be the last one. We might not have to hear from 
you folks again for a while, but the first panel will be 
revisited again along with others to address some of those 
questions on why we would take a system that was working in 
terms of oversight and kick it out the door and try something 
that was obviously not very successful.
    So thank you for giving up your time and making the effort 
to be here with us today, sharing your expertise. We really do 
appreciate it. Thanks.
    Meeting adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5293.083

[GRAPHIC] [TIFF OMITTED] T5293.084

[GRAPHIC] [TIFF OMITTED] T5293.085

                                 <all>

</pre></body></html>
